NO.

In the Supreme Court of the United States
SHANE DAVIS,

Petitioner,
vs.

MIKE CARROLL,
WILEEN R. WEAVER,
and PAULINE RILEY,

Respondents,

__________________

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
__________________

PETITITION FOR WRIT OF CERTIORARI
__________________

ROBERTO D. STANZIALE, P.A.
110 Southeast Sixth Street
Seventeenth Floor
Fort Lauderdale, Florida 33301
Telephone: (954) 763-7909
rdstanzlaw@gmail.com

Counsel for Petitioner

i
QUESTIONS PRESENTED
Though unstated in 42 U.S.C. § 1983 or the common law,
qualified immunity doctrine sets forth a two-prong test for
claims of qualified immunity: (i) whether the official violated
a person’s constitutional right, and (ii) whether the law was
clearly established at the time of the violation. The first asks
if the conduct was reasonable under the facts; the second asks
if the conduct violated clearly established law. Though the
Court has warned these inquiries are distinct, some courts
bifurcate the second prong to again ask if the conduct was
unreasonable, thus deciding factual reasonableness in the
second prong that should be considered only in the first and
inviting immunity to defendants who have knowledge of the
law at the time but violate it, as long as their violation is found
to have been factually reasonable. Also unclear is whether a
determination of whether the law was “clearly established” is
properly made as to each item of notice of the law in isolation,
or under the totality of notice at the time. Two questions arise:
A.
Whether qualified immunity absolves a defendant of
§ 1983 liability, despite knowledge of clearly established law,
unless the plaintiff shows the violation factually unreasonable?
B.
Whether determining if the law was clearly established
under qualified immunity doctrine views each item of notice
in isolation or must consider the totality of notice at the time?

ii
TABLE OF CONTENTS
QUESTION PRESENTED ………………………………… i
TABLE OF AUTHORITIES ……….……………………. iv
PETITION FOR WRIT OF CERTIORARI ……………….. 1
OPINIONS BELOW ………………………………………. 1
JURISDICTION …………………………………………... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ………………………………. 2
INTRODUCTION ………………………………………… 4
STATEMENT OF THE CASE ……………………….…… 5
A.

Deprivation of Required Laboratory Testing ……...… 5

B.

The Decisions Below ………………………………... 7

REASONS FOR GRANTING THE PETITION ………..... 11
I.

The Court Should Resolve Confusion Over
Whether Lower Courts Should Inject a
Consideration of Factual Reasonableness into
Decisions on the Qualified Immunity Doctrine’s
Clearly Established Law Prong
……………………………………………………….11

II.

The Court Should Resolve the Split Among and
Within the Circuits Over How to Perform, and What
May Inform, the Clearly Established Law Analysis
……………………………………………………… 14

iii
III. The Court Should Clarify Whether Plaintiffs Must
Also Demonstrate the Factual Unreasonableness
of an Official’s Conduct in Order to Show the
Law Was Clearly Established
……………………………………………………… 18
IV. The Court Should Clarify Whether, in Determining
Whether the Law Was Clearly Established, Courts
Should Consider Each Item of Fair Notice in
Isolation, or Perform the Totality-of-Notice
Analysis Applied in Hope v. Pelzer
…………………………………………………...…. 24
V.

The Opinion Below Clearly Misapprehends
Standards Set by the Court’s Precedents for
Disposing of Qualified Immunity Cases
…………………………………………………….... 29

CONCLUSION ……………………………………..……34
APPENDIX
A.

Opinion of United States Court of Appeals for the
Eleventh Circuit (Mar. 13, 2020) …………...…. App. 1

B.

Order of United States District Court,
Middle District of Florida (Sept. 27, 2018) ….... App. 15

C.

Order of United States Court of Appeals for the
Eleventh Circuit Denying Rehearing
(July 28, 2020) …………………………...…… App. 69

D.

Excerpt from Deposition of Wileen Weaver
(Nov. 3, 2017) …………...……………………. App. 70

iv
TABLE OF AUTHORITIES
CASES

Abraham v. Raso,
183 F.3d 279 (3d Cir. 1999) ………..……………21

Anderson v. Creighton,
483 U.S. 635 (1987) …...……………. 19, 29, 30, 31

Ashcroft v. Al-Kidd,
131 S.Ct. 2074 (2011) ….…………..……….. 12, 13

BMW of North America, Inc. v. Gore,
517 U.S. 559 (1996) ………….………………….. 20

Bailey v. Pataki,
708 F.3d 391 (2d Cir. 2013) …………………….. 15

Baxter v. Bracey,
140 S.Ct. 1862 (2020) ………….…..…… 23, 23 n.4

Beard v. Aguilar,
572 U.S. 1110 (2014) ……………………………. 33

Camreta v. Greene,
131 S.Ct. 2020 (2011) ….…….………………….. 20

CarePartners, LLC v. Lashway ,
545 F.3d 867 (9th Cir. 2008),
cert. denied , 129 S.Ct. 2382 (2009) …………….17

Crawford-El v. Britton ,
523 U.S. 574 (1998) …...………………………… 19

v

Curley v. Klem,
499 F.3d 199 (3d Cir. 2007) …...…...………. 22-23

Davis v. Carroll,
805 F. App'x 958 (11th Cir. 2020) ……………… 1

Davis v. Scherer,
468 U.S. 183 (1984) …………………………. 26 n.6

Doe 1-13 ex rel. Doe, Sr. 1-13 v. Chiles,
136 F.3d 709 (11th Cir. 1998) ………...………… 9

Dunigan v. Noble,
390 F.3d 486 (6th Cir. 2005) ………...…………. 17

Elder v. Holloway,
510 U.S. 510 (1994) ……...……………... 12, 26 n.6

Estate of Escobedo v. Bender,
600 F.3d 770 (7th Cir. 2010),
cert. denied, 131 S.Ct. 463 (2010) ……….…….. 18

Estate of Sorrells v. City of Dallas,
45 Fed. Appx. 325 (5th Cir. 2002),
cert. denied, 537 U.S. 1072 (2002) ……..… 13 n.2

Farmer v. Brennan,
511 U.S. 825 (1994) …………....… 9, 10, 21, 28, 33

Gonzalez v. City of Schenectady,
728 F.3d 149 (2d Cir. 2013) ………….…………. 15

Gonzalez v. Lee Cty. Hous. Auth.,
161 F.3d 1290 (11th Cir. 1998) ………….…….. 10

vi

Grawey v. Drury,
567 F.3d 302 (6th Cir. 2009) …....………… 17, 32

H.A.L. ex rel. Lewis v. Foltz,
551 F.3d 1227 (11th Cir. 2008) ... 9, 25 n.5, 30, 32

Hare v. City of Corinth,
135 F.3d 320 (5th Cir. 1998) ………………. 13, 14

Harlow v. Fitzgerald,
457 U.S. 800 (1982) …….…………………….19, 25

Hensley v. Gassman,
693 F.3d 681 (6th Cir. 2012),
cert. denied, 133 S.Ct. 1800 (2013) ……..…….. 17

Holzemer v. City of Memphis,
621 F.3d 512 (6th Cir. 2010) ……………..…….. 16

Hope v. Pelzer,
536 U.S. 730 (2002) ……….…. 5, 10, 12, 25-28, 32

Johnson v. Jones,
515 U.S. 304 (1995) ………….……………… 12, 13

Jones v. United States,
527 U.S. 373 (1999) …………..…………………. 20

Kovacic v. Cuyahoga County Department
of Children and Family Services,
724 F.3d 687 (6th Cir. 2013) …………..……….. 17

LaMont v. New Jersey,
637 F.3d 177 (3d Cir. 2011) ………………… 17-18

vii

Mitchell v. Forsyth,
472 U.S. 511 (1985) …………………..…………..12

Morrison v. Board of Trustees of Green Twp.,
583 F.3d 394 (6th Cir. 2009) ………..………….. 17

Ortiz v. Jordan,
131 S.Ct. 884 (2011) …….………………………. 12

Palmer v. Johnson,
193 F.3d 346 (5th Cir. 1999) ……….……… 13 n.2

Pearson v. Callahan,
555 U.S. 223 (2009) ………….………………….. 20

Quigley v. Tuong Vinh Thai,
707 F.3d 675 (6th Cir. 2013) …………………… 17

Rogers v. Missouri Pac. R. Co.,
352 U.S. 500 (1957) ……...……………………… 21

Russo v. City of Bridgeport,
479 F.3d 196 (2d Cir. 2007),
cert. denied, 552 U.S. 818 (2007) ………..…….. 16

Sample v. Bailey,
409 F.3d 689 (6th Cir. 2005) ……..…………….. 17

Saucier v. Katz,

533 U.S. 194 (2001) ………………..……… passim

Scott v. Harris,
550 U.S. 372 (2007) …………….……………….. 12

viii

Smith v. United States,
508 U.S. 223 (1993) …………………………. 23 n.4

Taravella v. Town of Walcott,
599 F.3d 129 (2d Cir. 2010) ……...……. 15, 16, 19

Tarver v. Edna,
410 F.3d 745 (5th Cir. 2005) ………………. 13 n.2

Taylor v. Ledbetter,
818 F.2d 791 (1987) ………….. 8, 9, 25 n.5, 26, 30

Taylor v. Riojas, 19-1261, 2020 WL 6385693
(U.S. Nov. 2, 2020) …………………………….. 33

Thomas v. Nugent,
572 U.S. 1111 (2014) …...……………………….. 33

Tolan v. Cotton,
572 U.S. 650 (2014) ……...... 29, 30, 31, 32 n.8, 33

Torres v. City of Madera,
648 F.3d 1119 (9th Cir. 2011),
cert. denied, 132 S.Ct. 1032 (2012) ………….…17

Walczyk v. Rio,
496 F.3d 139 (2nd Cir. 2007) ………….. 15, 16, 19

Youngberg v. Romeo,
457 U.S. 307 (1982) …………………………… 25 n.5

Zalaski v. City of Hartford,
723 F.3d 382 (2d Cir. 2013) …………………….. 16

ix
CONSTITUTION
U.S. Const. amend. XIV, § 1 …………………………... 2
STATUTES
28 U.S.C. § 1254(1) ……………………...……………… 1
28 U.S.C. § 1331 ………………………………..……….. 1
42 U.S.C. §§ 1396, et seq. ………………...………… 4, 7
42 U.S.C. § 1396a(a)(8) ……………………………….. 11
42 U.S.C. § 1396d(r)(1)(B)(iv) …….….. 3, 11, 14, 25, 26
42 U.S.C. § 1983 ………………………..… 2, 4, 9, 23 n.4
§ 39.407(1), Florida Statutes (1999) …………. 3, 11, 27
OTHER AUTHORITIES
Akil Reed Amar,

The Bill of Rights as a Constitution,
100 YALE L. J. 1131 (March 1991) …..… 20-21

DHHS, A Report on Infants and Children

with HIV Infection in Foster Care

(November 14, 1989) ................................... 27 n.7

1

PETITION FOR WRIT OF CERTIORARI
Shane Davis petitions the Court for issuance of
the writ of certiorari to review judgment of the United
States Court of Appeals for the Eleventh Circuit.
OPINIONS BELOW
The Eleventh Circuit’s written Opinion, issued in
Shane Davis v. Mike Carroll, 18-14558, may be found
at Davis v. Carroll, 805 F. App'x 958 (11th Cir. 2020),
and is reprinted in Appendix A. The Order of the
United States District Court for the Middle District
of Florida, in Davis v. Carroll, 8:16-cv-998-MSS-SPF,
may also be accessed at 2018 WL 8370337, and is
reprinted in Appendix B. The Eleventh Circuit’s
Order denying rehearing is reprinted in Appendix C.
JURISDICTION
This Court has certiorari jurisdiction pursuant to
28 U.S.C. § 1254(1). The court of appeals, which had
appellate jurisdiction under 28 U.S.C. § 1331, denied
Davis’s petition for rehearing July 26, 2020. App. C.
On March 19, 2020, this Court entered an Order
extending deadlines for certiorari petitions due on or
after that date until 150 days from, as relevant here,
the court of appeals’ order denying Davis’s petition for
rehearing. This petition is thus timely filed within
150 days of the court of appeals’ denial of rehearing.

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. amend. XIV, § 1, provides:
No State shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.
42 U.S.C. § 1983 provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to
the party injured in an action at law, suit in
equity, or other proper proceeding for redress,
except that in any action brought against a
judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive
relief shall not be granted unless a declaratory
decree was violated or declaratory relief was
unavailable. For the purposes of this section,
any Act of Congress applicable exclusively to
the District of Columbia shall be considered to
be a statute of the District of Columbia.

3

42 U.S.C. § 1396d(r)(1)(B)(iv) provides in part:
(r) Early and periodic screening, diagnostic,
and treatment services
The term “early and periodic screening,
diagnostic, and treatment services” means
the following items and services:
(1) Screening services-*
*
*
(B) which shall at a minimum include-(i) a comprehensive health and developmental
history (including assessment of both physical
and mental health development),
(ii) a comprehensive unclothed physical exam,
(iii) appropriate immunizations (according to
the schedule referred to in section
1396s(c)(2)(B)(i) of this title for pediatric
vaccines) according to age and health history,
(iv) laboratory tests
At all times, 39.407(1), Florida Statutes (1999),
provided in pertinent part:
When any child is removed from the home and
maintained in an out-of-home placement, the
department is authorized to have a medical
screening performed on the child without
authorization from the court and without
consent from a parent or legal custodian.
Such medical screening shall be performed
by a licensed health care professional and
shall be to examine the child for injury,
illness, and communicable diseases …

4

INTRODUCTION
On behalf of his adopted foster child (“J.D.D.”),
Shane Davis filed a 42 U.S.C. § 1983 action against
Florida Department of Children & Families (“DCF”)
officials Wileen Weaver (“Weaver”) and Pauline Riley
(“Riley”), alleging their deliberate indifference to the
newborn J.D.D.’s serious medical need while in state
custody by withholding legally required HIV testing
during the six-week window in which he could have
received effective treatment with antibodies, causing
his obvious risk for HIV infection to progress to AIDS.
J.D.D. alleged injury to his Fourteenth Amendment
right to be kept free from unreasonable risk of harm
while held in state custody and his right under federal
Early and Periodic Screening, Diagnosis & Treatment
(“EPSDT”) statutes, 42 U.S.C. §§ 1396, et seq., to
“prompt medical assistance,” and “laboratory tests,”
id., also noting state statutes, administrative rules,
and a federal agency report gave additional fair notice.
The district court found no violation, holding the
alleged conduct did not violate clearly established law
and entered summary judgment to grant defendants
qualified immunity. But in purporting to apply the
second prong of qualified immunity analysis (whether
the law was clearly established), the district court
actually performed the analysis germane to the first
(whether a violation occurred), deciding facts by
assuming that hospital staff had apparently not seen
a need for testing, and relying on doctor’s visits after
the six-week window for effective antibody treatment
to find that the defendants had acted reasonably.

5

The Eleventh Circuit affirmed, as it bifurcates the
second prong of the qualified immunity analysis,
asking not only whether the law was clearly
established at the time, but also the factual question
of whether defendants’ conduct was unreasonable in
light of the law, which would allow courts to consider
the factual unreasonableness of conduct as part of the
second, “clearly established law,” prong, despite this
Court’s warning the two prongs must remain distinct,
making factual unreasonableness solely part of the
first. See Saucier v. Katz, 533 U.S. 194, 204-06 (2001).
Also, instead of considering the multiple sources
of fair notice of clearly established law, as they existed
together in real time, the Eleventh Circuit, like the
district court, took each item of fair notice in isolation,
construed each against J.D.D. as being independently
disqualifying, and rejected his assertion the items of
notice should be taken in the light most favorable to
him by analyzing them together in real time context,
as this Court analyzed such notice in Hope v. Pelzer.
STATEMENT OF THE CASE
A.

Deprivation of Required Laboratory Testing

J.D.D. was born April 10, 2000. One week later,
defendants took him into custody from the hospital.
Weaver and Riley knew records showed his mother
lacked prenatal care, had 4 infants removed due to
drug exposure, that he was exposed to cocaine at birth
and that his mother was treated for heroin addiction
and arrested for prostitution, yet withheld laboratory
testing for communicable diseases. App. A at 2-4.

6

Seven weeks after taking him into their custody,
Weaver and Riley sent J.D.D. to a foster home on
June 5, 2000. The Davises adopted him in 2003 and,
at age 14, he developed thrush (common in infants but
rare in teens). J.D.D. was tested and diagnosed with
HIV which--because left untested and untreated--had
already progressed to full-blown AIDS. App. A at 4.
At deposition, Weaver stated she actually knew at
the time that the law required communicable disease
testing--but did not have J.D.D. tested. App. A at 3.1
An expert in Pediatrics and Infectious Diseases,
Jay Tureen, M.D., Ph.D., opined, “if J.D.D. had been
tested and treated for HIV within 6 weeks of his birth,
‘it is highly unlikely he would have developed an HIV
infection, and highly unlikely that his HIV infection
would have progressed to AIDS.’ ” App. A at 4-5.
Specialist Carina Rodriguez, M.D., who diagnosed
J.D.D.’s HIV and has treated him since, concurred
with Dr. Tureen’s assessment, adding HIV-positive
newborns are usually asymptomatic at birth. Id.

Q. Were you aware of the fact between April 1 of 2000
and January 1 of 2001, that such medical screening shall be
performed by a licensed health care professional and shall be to
examine the child for injury, illness and communicable diseases?
A. Yes.
Q. You were aware of that back at that time?
A. Yes.
Q. You just -A. But I don't do that.
1

(App. D) (Excerpt from Deposition of Wileen Weaver).

7

Weaver and Riley had sent J.D.D. to foster care
on June 5, 2000, App. B at 8--at eight (8) weeks of life.
While the panel noted (out of chronological order) that
a Dr. Gonzalez saw J.D.D. but did not seek testing,
App. A at 4, that occurred only after the six (6) week
window for effective treatment with HIV antibodies.
J.D.D.’s adoptive father sued Weaver and Riley in
their individual capacities under § 1983 for violating
J.D.D.’s clearly established Fourteenth Amendment
right to be kept safe from unreasonable risk of harm
while held in state custody by withholding legally
required testing for communicable disease with
deliberate indifference to his serious medical need,
causing his HIV to progress to AIDS. App. A at 5.
J.D.D. also alleged violation of his federal statutory
right to “prompt medical assistance,” including
“laboratory testing,” under federal Early and Periodic
Screening, Diagnosis & Treatment (“EPSDT”)
statutes, 42 U.S.C. § 1396, et seq. id., noting
additional fair notice of communicable disease testing
requirements in state law, state administrative rules
in effect at the time, and a federal agency report. Id.
B.

The Decisions Below

District Court
The district court granted summary judgment
upon defendants’ claim of qualified immunity. App. B.
Though the defendants admitted knowing J.D.D. had
been exposed to cocaine at birth, that his mother had
lacked prenatal care and had four children removed
for drug exposure, that they had a file with domestic
violence reports, App. B at 6-7, noting his mother was

8

arrested for prostitution and treated for heroin abuse,
id. at 26-28, and though evidence showed they knew
of these facts because, as the district court noted,
“[t]he information was repeated numerous times
throughout different documents in J.D.D.’s DCF file”
above their names or signatures. Id. The court found,
“the limited facts known to Weaver and Riley simply
do not demonstrate an obvious risk to J.D.D. of having
contracted [sic] HIV, such that a juror could say that
Weaver and Riley must have known of it,” id. at 28
(emphasis added), and that, in light of these facts, it
“was not obvious enough to permit a jury to find that
Weaver and Riley were deliberately indifferent by
failing to have him tested for the illness.” Id. at 29.
Though J.D.D. alleged defendants knew the risk
of withholding required communicable disease testing
(cf. the risk he had “contracted” HIV), and although
“children born with HIV are typically asymptomatic,”
App. B at 29, the court held that, to find deliberate
indifference, it “would have to find that Weaver and
Riley had knowledge of J.D.D.’s need for treatment,
either because his HIV was already diagnosed or its
symptoms were obvious.” Id. at 37 (emphasis added).
The district court ignored Weaver’s deposition
testimony she had actual notice of the law requiring
communicable disease testing at the time, App. D,
concluding the law was not clearly established, since
“the facts of the instant case are significantly
different from Taylor [v. Ledbetter, 818 F.2d 791 (11th
Cir. 1987)] such that the Court cannot conclude that
Taylor put Weaver and Riley on adequate notice that
their conduct was a violation of J.D.D.’s constitutional

9

rights,” App. B at 36, and since the EPSDT statutes
(requiring “prompt” and “early” “laboratory testing”)
were not “sufficiently clear to put Weaver and Riley
on notice that their failure to [request] HIV screening
for J.D.D. violated his statutory right to medical
assistance with reasonable promptness and EPSDT.”
Id. at 39. The district court rejected each additional
item of notice (state statutes, administrative rules,
and federal agency report), taking each in isolation to
find the law was not clearly established. Id. at 32-45.

Court of Appeals
The Eleventh Circuit noted it had earlier held,
“a foster child can state a 42 U.S.C. § 1983 cause of
action under the Fourteenth Amendment if the child
is injured after a state employee is deliberately
indifferent to a known and substantial risk to the
child of serious harm, H.A.L. ex rel. Lewis v. Foltz,
551 F.3d 1227, 1231 (11th Cir. 2008) (per curiam)
(citing Taylor v. Ledbetter, 818 F.2d 791, 794-96
(1987) (en banc)),” App. A at 7, and had earlier
“identified ‘a federal right to reasonably prompt
provision of assistance under section 1396a(a)(8).”
Doe 1-13 ex rel. Doe, Sr. 1-13 v. Chiles, 136 F.3d 709,
719 (11th Cir. 1998). App. A at 12. The panel also
recognized deliberate indifference “does not require a
smoking gun; a factfinder could conclude that an
‘official knew of a substantial risk from the very fact
that the risk was obvious.’ ” App. A at 8 (quoting
Farmer v. Brennan, 511 U.S. 825, 842 (1994)); see also
id. (“Whether … official had the requisite knowledge
of a substantial risk is a question of fact subject to
demonstration in the usual ways, including inference
from circumstantial evidence …”) (emphasis added).

10

Though circumstantial evidence suggested the
risk was “longstanding, pervasive, well-documented,
or expressly noted by … officials in the past, and the
circumstances suggest that the defendant-official
being sued had been exposed to information
concerning the risk and thus ‘must have known’ about
it, [so] such evidence could be sufficient to permit a
trier of fact to find that the defendant-official had
actual knowledge of the risk,” Farmer, 511 U.S. at
842-43, (emphasis added), the court of appeals held,
“We do not view the risk as being obvious,” id. at 8,
wholly ignoring Weaver’s deposition testimony that
she had actual notice of the law requiring testing at
the time, App. D, construing facts against J.D.D., and
speculating about what defendants, and others
(beyond the record) “would have known.” Id. at 10, 14.
Though, as to the clearly established law prong of
qualified immunity analysis, “the salient question”
was “whether the state of the law … gave respondents
fair warning that their alleged treatment of [J.D.D.]
was unconstitutional,” Hope v. Pelzer, 536 U.S. 730,
741 (2002), and while the panel acknowledged “some
federal statutory provisions will be sufficiently clear
on their own to provide defendants with fair notice of
their obligations under the law,” App. A at 11 (quoting
Gonzalez v. Lee Cty. Hous. Auth., 161 F.3d 1290, 1301
(11th Cir. 1998)), the panel considered factual
matters in deciding whether the law was clearly
established, hypothesizing that defendants’ conduct
was objectively reasonable since theoretical hospital
staff (outside the record) or doctors (after the six-week
window for any effective treatment with antibodies)
“did not see a need for HIV screening.” App. A at 14.

11

While noting federal statutes required defendants
provide “ ‘medical assistance’ with ‘reasonable
promptness’… 42 U.S.C. § 1396a(a)(8) (2000),” which
“includes early and periodic screening, such as
‘laboratory tests’ and other treatment ‘to correct or
ameliorate defects’ and physical ‘illnesses and
conditions.’ Id. § 1396d(r)(1)(B)(iv), (5),” App. A at 11,
and that Florida statutes “authorized [DCF] to have a
medical screening performed on the child without
authorization from the court,” which “shall be to
examine the child for … communicable diseases,”
§ 39.407(1), Fla. Stat. (1999), App. A at 13, the
Eleventh Circuit concluded: “[W]e cannot say that
this language put social workers on notice that they
must diagnose [sic] an HIV risk and pursue screening,
or else face personal financial liability.” App. A at 12.
Davis petitioned for rehearing, discussing the
issues presented herein, and the Eleventh Circuit
denied Davis’s Petition for Rehearing. App. C.
REASONS FOR GRANTING THE PETITION
I. The Court Should Resolve Confusion Over
Whether Lower Courts Should Inject a
Consideration of Factual Reasonableness
into Decisions on the Qualified Immunity
Doctrine’s Clearly Established Law Prong
Two questions arise when an official claims
qualified immunity. First: “Taken in the light most
favorable to the party asserting the injury, do the
facts alleged show the officer’s conduct violated a
constitutional right?” Saucier v. Katz, 533 U.S. 194,

12

201 (2001). The second prong of qualified immunity
analysis asks whether the law creating the right was
“clearly established” at the time of the violation,
Hope v. Pelzer, 536 U.S. 730, 739 (2002), because,
even under qualified immunity doctrine, officials are
only “shielded from liability for civil damages if their
actions did not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.” Id. “[T]he salient question ... is
whether the state of the law” at the time of the
incident provided the defendant fair warning that
their alleged conduct was unconstitutional.” Id., 536
U.S. at 741. Qualified immunity is only available
where the official reasonably misjudged the law, as
opposed to the facts, Saucier, 533 U.S. at 205; see also
Ashcroft v. Al-Kidd, 563 U.S. 731, 743 (2011), which is
intended to ensure that officials had “fair notice” their
conduct was unlawful. See Saucier, 533 U.S. at 202.
Thus, while the first prong of the traditional
qualified immunity analysis is factual and goes to the
merits of the case, the second prong is legal and
assesses a defendant’s claim of immunity. Under the
first prong, courts and juries “slosh [their] way
through the fact-bound morass of ‘reasonableness’ ” to
determine whether conduct violates the constitution.
Scott v. Harris, 550 U.S. 372, 383 (2007). Under the
second, courts confront “a legal issue that can be
decided with reference only to undisputed facts and in
isolation from the remaining issues of the case.”
Johnson v. Jones, 515 U.S. 304, 313 (1995) (quoting
Mitchell v. Forsyth, 472 U.S. 511, 530 n. 10 (1985));
accord Ortiz v. Jordan, 131 S.Ct. 884, 892-93 (2011);
Elder v. Holloway, 510 U.S. 510, 516 (1994). The two
are analytically distinct, see Saucier, 533 U.S. at 204;

13

Johnson, 515 U.S. at 312. “When a court of appeals

does address both prongs of qualified-immunity
analysis, [this Court has] discretion to correct its
errors at each step.” Ashcroft, 563 U.S. at 735.
But rather than applying this Court’s precedent
distinguishing those two prongs, the Eleventh Circuit
here lumped them together, injecting merits-related
factual reasonableness into the purely legal second,
“clearly established law,” prong, as the Fifth Circuit
did, for example, in a case which predated Saucier. In
Hare v. City of Corinth, 135 F.3d 320 (5th Cir. 1998),
the Fifth Circuit announced that the second prong
“is better understood as two separate inquiries.” 135
F.3d at 326. First: whether the right at issue was
clearly established. Second: “whether the conduct of
the defendants was objectively unreasonable in the
light of that then clearly established law.” Id. But by
splitting the second prong, the Fifth Circuit in Hare
licensed consideration of factual reasonableness as
part of the qualified immunity analysis, rather than
as solely relating to the merits. Hare found the
defendants immune under the second prong based on
the facts of that case, rather than on any reasonable
legal misunderstanding by officials. Id. at 329.
Fifth Circuit decisions after Hare have defined
the second prong of the qualified immunity analysis
in that same way,2 and the Eleventh Circuit here
repeats that practice: describing what happened,
See, e.g., Tarver v. Edna, 410 F.3d 745, 750 (5th Cir. 2005); Estate
of Sorrells v. City of Dallas, 45 Fed. Appx. 325, 2002 WL 1899592
at * 2 (5th Cir.), cert. denied, 537 U.S. 1072 (2002); and Palmer v.
Johnson, 193 F.3d 346, 351 (5th Cir. 1999).
2

14

considering whether the defendants could reasonably
have decided not to test the infant J.D.D. (as well as
assuming non-record facts that unidentified hospital
staff or later doctors “did not see a need” for testing.
App. A at 14.). This is a misplaced first-prong
analysis whether the conduct was reasonable in light
of (here assumed) facts; not the legal second prong
question of whether the law gave the defendants
fair notice that their conduct was unlawful. In short,
the Eleventh Circuit, in the present case, engaged in
substantially the same analytic exercise as did the
Fifth Circuit in Hare, which predated Saucier’s
distinction between the two prongs of qualified
immunity analysis, and performed what it proceeded
upon as a second-prong legal analysis, but which has
all the earmarks of a first-prong, fact-based inquiry.
The Court’s guidance is critical as to how, if at all,
courts should determine whether the law was clearly
established under its doctrine of qualified immunity.
II.

The Court Should Resolve the Split
Among and Within the Circuits Over
How to Perform, and What May Inform,
the Clearly Established Law Analysis

The decision below reveals a split among and
within the circuits whether factual unreasonableness
is a separate, third element that plaintiffs must prove
in order to overcome a qualified immunity defense.
As to the second prong, the panel eyed the statutes’
clear requirement that the defendants provide J.D.D.
Early and Periodic Screening, Diagnosis & Treatment,
“which shall at a minimum include…laboratory tests,”
42 U.S.C. § 1396d(r)(1)(B)(iv), but held that the law

15

was not clearly established since he did not show that
defendants acted upon it unreasonably. App. A at 12
(“we cannot say that this language put [defendants]
on notice that they must diagnose an HIV risk and
pursue screening, or else face personal financial
liability”), thus requiring not only a showing that the
law was clear but was also acted upon unreasonably.3
The Second Circuit remains divided over whether
the qualified immunity test has two or three prongs,
asking, “even if the right was ‘clearly established,’
whether it was ‘objectively reasonable’ for the officer
to believe the conduct at issue was lawful.” Gonzalez
v. City of Schenectady, 728 F.3d 149, 154 (2d Cir.
2013); see also Bailey v. Pataki, 708 F.3d 391, 404 n.
8 (2d Cir. 2013) (“There is some tension in our Circuit’s
cases as to whether the qualified immunity standard
is of two or three parts, and whether the ‘reasonable
officer’ inquiry is part of step two--the ‘clearly
established’ prong--or whether it is a separate, third
step in the analysis”); Taravella v. Town of Walcott,
599 F.3d 129, 136 (2d Cir. 2010) (Straub, J.,
dissenting) (collecting two-step and three-step
decisions). Then-Circuit Judge Sotomayor noted the
Second Circuit’s “approach splits the single question
of whether a right is ‘clearly established’ into two
distinct steps, contrary to Supreme Court precedent,”
Walczyk v. Rio, 496 F.3d 139, 166 (2nd Cir. 2007)
(Sotomayor, J., dissenting), and further noted:

Though ignored by the district court and court of appeals,
Weaver stated at deposition that she actually knew at the time
that the law required testing for communicable disease. App. D.
It cannot, therefore, be said that Weaver made a mistake of law.
3

16

Contrary to what our case law might
suggest, the Supreme Court does not
follow this “clearly established” inquiry
with a second, ad hoc inquiry into the
reasonableness of the officer’s conduct.
Once we determine whether the right at
issue was clearly established for the
particular context that the officer faced,
the qualified immunity inquiry is
complete.

Id. at 166-67. Indeed, some Second Circuit panels

have ignored that intra-circuit conflict, instead
applying the two-pronged test from Saucier. See, e.g.,
Zalaski v. City of Hartford, 723 F.3d 382, 388 (2d Cir.
2013); Russo v. City of Bridgeport, 479 F.3d 196, 211
(2d Cir.), cert. denied, 552 U.S. 818 (2007). As Judge
Straub pointed out in his dissent in Taravella, “the
case law is divided, not only in our Circuit, but also in
courts around the country. Several circuits have used
a three-step analysis, even after the Supreme Court
mandated a two-step inquiry in Saucier…. [C]ourts
have been inconsistent in their treatment of the
proper standard for qualified immunity.” Taravella,
599 F.3d at 138 n. 2 (Straub, J., dissenting).
The Sixth Circuit is also divided, with some
panels applying a three-part test, asking a third
question about reasonableness akin to that employed
in the Fifth and Second Circuits: “whether the
plaintiff has offered sufficient evidence to indicate
that what the official allegedly did was objectively
unreasonable in light of the clearly established
constitutional rights.” Holzemer v. City of Memphis,
621 F.3d 512, 519 (6th Cir. 2010). Other decisions note
the third question is considered “in some instances,”

17

leaving uncertain whether or when the test has two
or three parts. See, e.g., Quigley v. Tuong Vinh Thai,
707 F.3d 675, 681 n. 2 (6th Cir. 2013); Hensley v.
Gassman, 693 F.3d 681, 687 n. 5 (6th Cir. 2012), cert.
denied, 133 S. Ct. 1800 (2013). One panel called it
“redundant,” Grawey v. Drury, 567 F.3d 302, 309 (6th
Cir. 2009); another objected to it as inconsistent with
Saucier, Dunigan v. Noble, 390 F.3d 486, 491 n. 6 (6th
Cir. 2005); a third disagreed and reaffirmed it.
Sample v. Bailey, 409 F.3d 689, 696 n. 3 (6th Cir.
2005). Other Sixth Circuit panels have ignored any
third question entirely and employ the two-pronged
test in Saucier. See. e.g., Kovacic v. Cuyahoga County
Department of Children & Family Services, 724 F.3d
687, 695 (6th Cir. 2013); Morrison v. Board of Trustees
of Green Township, 583 F.3d 394, 400 (6th Cir. 2009).
The Ninth Circuit has struggled with whether to
add a third prong inquiry into factual reasonableness.
See CarePartners LLC v. Lashway, 545 F.3d 867, 876
n. 6 (9th Cir. 2008) (“We have previously expressed the
qualified immunity test as both a two-step test and a
three-step test”), cert. denied, 129 S. Ct. 2382 (2009).
The Eleventh Circuit’s consideration here of
the factual reasonableness of defendants’ conduct in
determining qualified immunity as part of the second
prong creates a further split with the Ninth Circuit,
which noted, “While the constitutional violation
prong concerns the reasonableness of the officer’s
mistake of fact, the clearly established prong concerns
the reasonableness of the officer’s mistake of law.”
Torres v. City of Madera, 648 F.3d 1119, 1127 (9th Cir.
2011) (original emphasis), cert. denied, 132 S. Ct.
1032 (2012); see also LaMont v. New Jersey, 637 F.3d

18

177, 185 (3d Cir. 2011) (“In short, the dispute in this
case is about the facts, not the law. The doctrine of
qualified immunity is therefore inapposite.”).
Some courts have maintained the distinction
between the two prongs. E.g., Estate of Escobedo v.
Bender, 600 F.3d 770, 779 n. 3 (7th Cir. 2010)
(objective reasonableness relates to first prong of
qualified immunity analysis, not second), cert. denied,
131 S. Ct. 463 (2010). The decision here, where the
Eleventh Circuit asked, in effect, “Was it reasonable
for Weaver to disregard the EPSDT statutes’ clear
requirement that she not withhold “laboratory tests?”
epitomizes how subdividing the second prong to
require separate proof of factual unreasonableness
results in the misapplication of the traditional test for
qualified immunity, creating this further circuit split.
III.

The Court Should Clarify Whether
Plaintiffs Must Also Demonstrate the
Factual Unreasonableness of an
Official’s Conduct in Order to Show
the Law Was Clearly Established

There are at least five reasons the Court should
address uncertainty in whether to consider factual
unreasonableness in deciding the clearly established
law prong of the Court’s qualified immunity test.
First, expanding the second prong to consider factual
reasonableness as a third question alters the delicate
balance struck in cases creating qualified immunity
at all, further hobbling recovery for constitutional
violations. As then-Circuit Judge Sotomayor wrote in
dissent from Second Circuit inconsistency in treating
factual reasonableness as an additional third step:

19

By introducing reasonableness as a
separate step, we give defendants a
second bite at the immunity apple,
thereby thwarting a careful balance that
the Supreme Court has struck “between
the interests in vindication of citizens’
constitutional rights and in public
officials’ effective performance of their
duties.”

Walczyk, 496 F.3d at 168-69 (Sotomayor, J.,
dissenting) (quoting Anderson v. Creighton, 483 U.S.
635, 639 (1987)).

This Court has long recognized, “[i]f the law was
clearly established, the immunity defense ordinarily
should fail, since a reasonably competent public
official should know the law governing his conduct.”
Crawford-El v. Britton, 523 U.S. 574, 591 (1998)
(quoting Harlow v. Fitzgerald, 457 U.S. 800, 818-19
(1982)). But repeating the consideration of factual
reasonableness in resolving the second prong gives
defendants a “second bite at the immunity apple,”
Walczyk, 496 F.3d at 169, and risks immunizing
unconstitutional behavior even when defendants
should have known what the law required in the
situation (as defendant Weaver said she actually did).
It also places a thumb on the scale in a defendant’s
favor, erecting an extra, duplicative, and wholly
unnecessary hurdle for the plaintiff. See Taravella,
599 F.3d at 138 (Straub, J., dissenting).
Second, considering factual reasonableness in
analyzing immunity, instead of only with respect to
the merits, frustrates development of the law.

20

Though Pearson v. Callahan, 555 U.S. 223, 237 (2009)
allows courts to alter the prongs’ order, proper
consideration of both prongs is generally essential, as
such rulings “promote clarity--and observance--of
constitutional rules” in the future, just as repeatedly
avoiding constitutional questions through immunity
“threatens to leave standards of official conduct
permanently in limbo.” Camreta v. Greene, 563 U.S.
692, 706 (2011). “Qualified immunity thus may
frustrate the development of constitutional precedent
and the promotion of law-abiding behavior.” Id.
(citations, quotations omitted). If the question of
whether officials’ conduct was reasonable in light of
the facts is injected into the second prong, intended to
resolve immunity, courts will have even less occasion
to examine whether official practices comply with the
Constitution. Fewer cases will develop constitutional
precedent to promote lawful behavior by officials who
depend on guidance from the courts. Disputes on the
merits will, as here, be decided under the guise of
determining immunity. The first prong, created to
sort out facts and set constitutional boundaries for
officials’ actions, will instead be subsumed by the
second prong, rendering the first prong academic.
Third, injecting factual reasonableness into the
immunity prong would diminish the vital role juries
play in establishing what is factually reasonable.
As juries are the “conscience,” or “voice,” of the
community, see, e.g., Jones v. United States, 527 U.S.
373, 382 (1999); BMW of North America, Inc. v. Gore,
517 U.S. 559, 600 (1996) (Scalia, J., dissenting),
deciding whether conduct is “reasonable” is for a jury.
See, e.g., Akil Reed Amar, The Bill of Rights as a
Constitution, 100 Yale L. J. 1131, 1180 (March 1991)
(“Reasonableness vel non was a classic question of fact

21

for the jury … requir[ing] the federal government to
furnish a jury to any plaintiff-victim who demanded
one, and protect that jury’s finding of fact from being
overturned by any judge or other government
official.”). “ ‘The very essence of [the jury] function is
to select from among conflicting inferences and
conclusions that which it considers most reasonable.’ ”
Rogers v. Missouri Pac. R. Co., 352 U.S. 500, 504 n. 8
(1957) (quoting Tennant v. Peoria & P.U.R. Co., 321
U.S. 29, 35 (1944)); see also Abraham v. Raso, 183
F.3d 279, 289-90 (3d Cir. 1999) (“[S]ince we lack a
clearly defined rule for declaring when conduct is
unreasonable in a specific context, we rely on the
consensus required by a jury decision to help ensure
that the ultimate legal judgment of ‘reasonableness’
is itself reasonable and widely shared.”).
Indeed, the Court’s precedents beg the question
whether, in this case, Weaver and Riley had sufficient
knowledge of the substantial risk to J.D.D.’s life so as
to be obvious to a layperson and thus unreasonable,
and their refusal to act thus deliberately indifferent,
as “[t]he information was repeated numerous times
throughout different documents in J.D.D.’s DCF file,”
above their names or signatures, App. B at 27,
creating a question for a trier of fact; not one of law.
See, e.g., Farmer v. Brennan, 511 U.S. 825, 842
(1994)). (“Whether a prison official had the requisite
knowledge of a substantial risk is a question of fact
subject to demonstration in the usual ways, including
inference from circumstantial evidence … and a
factfinder may conclude that a prison official knew of
a substantial risk from the very fact that the risk was
obvious”) (emphasis added). This was a first-prong
factual question; not a second-prong legal question.

22

But by injecting factual reasonableness into the
clearly established law inquiry, the Eleventh Circuit’s
approach restricts juries’ ability to define what should
qualify as factually reasonable. Because the task of
deciding whether the law was clearly established is
reserved to the court, deciding factual reasonableness
or obviousness under the second prong cuts juries out
of assessing whether officials’ actions are factually
reasonable, causing the law to increasingly lack the
essential input of ordinary citizens, while judges
parse through questions of fact best suited to jurors.
The same is true here: the Eleventh Circuit
selectively sloshed through the facts to render its own
judgment that the defendants’ conduct in ignoring the
risk of harm by withholding the infant J.D.D.’s testing
(despite actual knowledge of clearly established law)
was not unreasonable, concluding, “We do not view
the risk as being obvious,” App. A at 8--then used that
factual determination of reasonableness from the
bench to make what this Court has held must be an
entirely legal decision concerning qualified immunity.
Fourth, the Court should grant certiorari to bring
clarity and uniformity to lower courts’ treatment of
qualified immunity. As the late Justice Ginsberg
predicted in Saucier, asking courts to navigate two
forms of reasonableness in qualified immunity cases
“holds large potential to confuse.” 533 U.S. at 210
(Ginsberg, J., concurring). The Third Circuit later
echoed that danger in Curley v. Klem, 499 F.3d 199
(3d Cir. 2007), noting it “presents perplexing logical
and practical problems,” 499 F.3d at 208, although
the “[c]onfusion between the threshold constitutional
inquiry and the immunity inquiry is …
understandable given the difficulty courts have had

23

in elucidating the difference between those two
analytical steps,” id. at 214--thus yielding the decision
in this case, as well as the split among and within the
circuits on how to define and apply the second prong
of the Court’s prevailing qualified immunity doctrine.
And fifth, as the Court’s “qualified immunity
doctrine appears to stray from the statutory text,”
Baxter v. Bracey, 140 S.Ct. 1862 (2020) (Thomas, J.,
dissenting), casting doubt on its faithful agency of
Congress’s enactment in § 1983, the questions herein,
and their underlying precedents, should be revisited.4
Meanwhile, injecting a factual reasonableness
inquiry into its “clearly established law” prong upsets
the precarious balance struck by decisions creating
the qualified immunity doctrine, causing a split
among and within the circuits, hobbling development
of the law guiding official conduct, diminishing juries’
role in deciding such fact-bound questions, and
frustrating clarity and uniformity in its application.

As the text of § 1983 mentions no defense or immunity, and
neither existed at common law, “[t]here likely is no basis for the
objective inquiry into clearly established law that [the Court’s]
modern cases prescribe.” Baxter v. Bracey, 140 S. Ct. at 1862-64
(Thomas, J., dissenting from denial of certiorari). As § 1983, by
its own explicitly stated terms, applies to “Every person” acting
under color of state law, except a judicial officer in a specific
capacity, any notion Congress meant only some people in some
cases is linguistically and conceptually incorrect and arguably
unfaithful to Congress’s text in § 1983. See also Smith v. United
States, 508 U.S. 223, 247, n. 4 (1993) (Scalia, J., dissenting)
(“Stretching language in order to write a more effective statute
than Congress devised is not an exercise we should indulge in.”).
4

24

IV.

The Court Should Clarify Whether, in
Determining Whether the Law Was
Clearly Established, Courts Should
Consider Each Item of Fair Notice in
Isolation or Perform the Totality-of-Notice
Analysis Applied in Hope v. Pelzer

Under qualified immunity doctrine, officials are
only “shielded from liability for civil damages if their
actions did not violate ‘clearly established statutory
or constitutional rights of which a reasonable person
would have known.’ ” Hope v. Pelzer, 536 U.S. 730,
739 (2002) (quoting Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982)). “The relevant, dispositive inquiry in
determining whether a right is clearly established is
whether it would be clear to a reasonable officer his
conduct was unlawful in the situation he confronted.”
Saucier, 533 U.S. at 202; Hope, 536 U.S. at 746. Thus,
“the salient question ... is whether the state of the law”
at the time “gave [officials] fair warning that their
alleged treatment of [plaintiff] was unconstitutional,”
Hope, 536 U.S. at 741 (emphasis added): i.e., whether
the official had “fair notice” of the law. Id. at 739.
Though a “mistake of law” may entitle an official
to qualified immunity, Saucier, 533 U.S. at 205,
Weaver stated at deposition that she actually knew,
at the time of events, that the law required J.D.D.’s
communicable disease testing, “but I don’t do that,”
App. D, thus negating any mistake of law--and any
doubt she received “fair notice.” Still, the courts below
simply ignored Weaver’s own deposition testimony
and rejected each offered corroborating item of fair
notice of clearly established law in piecemeal fashion.

25

The courts below gave short shrift to the asserted
violation of J.D.D.’s Fourteenth Amendment right to
be kept free from the risk of harm in state custody,5
and suggested his asserted federal statutory right to
“laboratory tests,” 42 U.S.C. § 1396d(r)(1)(B)(iv),
merely “seeks to tack this statutory argument onto
his constitutional one,” App. A at 11, thus revealing
a linear, compartmentalized, analysis of “fair notice.”
Instead of viewing the multiple items of fair notice
as they existed together in real time to determine
“whether it would be clear to a reasonable officer his
conduct was unlawful in the situation he confronted,”
Saucier, 533 U.S. at 202; Hope, 536 U.S. at 746, the
Eleventh Circuit rejected each item of fair notice
(including the cited federal statute, state statutes,
state administrative rules, and U.S. Dept. of Health
and Human Services report) in artificial isolation,
construing each against J.D.D. to find defendants’
Taylor v. Ledbetter, 818 F.2d 791, 795 (11th Cir. 1987) (en banc)
(citing Youngberg v. Romeo, 457 U.S. 307, 320 (1982)). See also
H.A.L. ex rel. Lewis v. Foltz, 551 F.3d 1227 (11th Cir. 2008):
5

Taylor clearly established decisional law that applied,
at the pertinent time, with obvious clarity to
Defendants in this case … Defendants had fair
warning that their conduct (doing nothing to protect
the children, given the circumstances) violated clear
federal law.
Defendants can therefore be held
personally liable for the children’s injuries. On the
alleged facts, no reasonable person in Defendants'
place could have believed that, by doing nothing to
protect the children, they could carry out their duties
consistently with the Constitution.

H.A.L. ex rel. Lewis v. Foltz, 551 F.3d at 1231.

26

conduct did not violate his federal statutory right to
“laboratory tests” for “illnesses and conditions.”6
But the other items of fair notice--corroborating
the law requiring, “at a minimum,” “laboratory tests,”
§ 1396d(r)(1)(B)(iv)--did not each exist in a vacuum.
Together, they gave the defendants fair notice of the
“state of the law” at the time, Hope, 536 U.S. at 741,
and may arguably be analyzed together in real time,
as the Court analyzed analogous provisions in Hope.

Hope held broad case precedent, an Alabama
Department of Corrections rule, and a Department of
Justice report together showed officials were on fair
notice the right at issue was clearly established,
prohibiting qualified immunity. 536 U.S. at 741-44.
Hope did not take each of those provisions in
piecemeal isolation and pick each apart as though
they did not exist together as the then-contemporary
totality of notice: “the state of the law.” Hope, at 741.
Here, broad constitutional precedent in Taylor,
federal statutes requiring “laboratory tests,” and
state statutory “medical screening performed on the
child without authorization from the court,” which
While the panel cited Davis v. Scherer, 468 U.S. 183, 194 (1984)
as holding, “officials sued for constitutional violations do not lose
their qualified immunity merely because their conduct violates
some statutory or administrative provision,’ ” App. A at 11, the
Court in Elder v. Holloway, 510 U.S. 510, 511 (1994), later noted,
“The Court held in Davis only this: To defeat qualified immunity
the federal right on which the claim for relief is based--rather
than some other right--must be clearly established.” Id. As the
right upon which J.D.D.’s claim for relief is based is the federal
statutory right to laboratory tests, Davis v. Sherer is inapposite.
6

27

“shall be to examine the child for injury, illness, and
communicable diseases,” § 39.407(1), Florida Statutes
(1999) together gave clear, fair notice of what was
legally required. Arguably, where, as here, a foster
care official, like Weaver, has knowledge of an infant’s
documented multiple HIV risk factors, but declines to
have the infant tested, as required by the law Weaver
admitted having actually known at the time, App. D,
“it would be clear to a reasonable officer [her] conduct
was unlawful in the situation [s]he confronted.” Hope,
536 U.S. at 746 (quoting Saucier, 533 U.S. at 202).
State administrative rules in effect at the time

also gave further fair notice a child “should” be tested
for HIV under at least three of its criteria, and a U.S.
Department of Health and Human Services report
stated, as to HIV, a decade before J.D.D.’s birth and
coercive custody, “[t]he potential benefits to the foster
care system and the child's health provide compelling
reasons to test all at-risk children in foster care.”7
The panel’s notion that, “a state’s duty to provide
prompt care for known medical needs does not imply
--let alone ‘clearly establish’--that an individual social
worker must request specific tests for an unknown
medical need,” App. A at 12, itself ignored that the
“known medical need” was the obvious need for
legally required laboratory tests essential to making
the illness “known,” and that by failing to comply with
the law’s requirement (which Weaver acknowledged
actually knowing at the time), “it would be clear to a
A Report on Infants and Children with HIV Infection in
Foster Care (November 14, 1989) https://aspe.hhs.gov/basic7 DHHS,

report/report-infants-and-children-hiv-infection-foster-care

28

reasonable officer that [her] conduct was unlawful in
the situation [s]he confronted.” Hope, 536 U.S. at 746;
Saucier, 533 U.S. at 202. After all, as this Court has
noted, an “official cannot hide behind an excuse that
[s]he was unaware of a fact or risk if that fact or risk
would have been obvious,” Farmer, 511 U.S. at 842,
particularly where, as here, the official has become
“unaware” solely by virtue of ignoring a known law.
Noting, “ ‘laboratory tests’ includes screening for
HIV,” App. A at 12, yet ignoring Weaver’s admission
she actually knew communicable disease testing was
legally required, the Eleventh Circuit concluded,
“[W]e cannot say that this language put [defendants]
on notice that they must diagnose [sic] an HIV risk
and pursue screening, or else face personal financial
liability,” App. A at 12: a non-medical reason which
places a financial cart before the constitutional horse.
But the totality of notice at the time (federal statutes,
state statute, administrative rules and agency report)
together arguably gave defendants notice of J.D.D.’s
right to laboratory testing, including for HIV, under
the EPSDT statutes and the Fourteenth Amendment.
This was the “state of the law” analysis applied in
Hope, at 741, the clarification of which is sought here.
The Court should grant review to clarify whether
lower courts determining whether the law was clearly
established, should consider the law at the time under
the totality-of-notice, i.e., “state of the law,” standard
applied in Hope, rather than under the arguably
myopic, unrealistic, atomistic approach taken below.

29

V.

The Opinion Below Clearly Misapprehends
Standards Set by the Court’s Precedents
for Disposing of Qualified Immunity Cases

The opinion below also clearly misapprehends the
summary judgment standards on claims of qualified
immunity. Tolan v. Cotton, 572 U.S. 650, 659 (2014)
(“[W]e intervene here because the opinion below
reflects a clear misapprehension of summary
judgment standards in light of our precedents.”).
The opinion not only (a) fails to “view the evidence ‘in
the light most favorable to the opposing party,’ ” Id.,
572 U.S. 659 (quoting Adickes v. S.H. Kress & Co.,
398 U.S. 144, 157 (1970)), (b) fails to adhere to the
Court’s standard that “all justifiable inferences are to
be drawn in [the non-movant’s] favor,” id. at 651, and
(c) fails to apply the Court’s standard that, “under
either prong [of qualified immunity], courts may not
resolve genuine disputes of fact in favor of the party
seeking summary judgment,” id., at 656, but also
(d) fails to consider the non-moving party’s material
evidence--the defendant’s own deposition testimony.
The Court’s qualified immunity precedents hold,
“if a violation could be made out on a favorable view
of the parties’ submissions,” Saucier, 533 U.S. at 201,
“courts may not resolve genuine disputes of fact in
favor of the party seeking summary judgment,” Tolan,
572 U.S. at 656, because “a ‘judge's function’ at
summary judgment is not ‘to weigh the evidence and
determine the truth of the matter but to determine
whether there is a genuine issue for trial,’ ” Tolan, 572
U.S. at 656 (quoting Anderson, 477 U.S., at 249).

30

But the lower court’s rank speculation here about
non-record “facts,” including the thought processes of
unknown hospital staff, or doctors (seen only after the
six-week window in which J.D.D. could have received
effective treatment with antibodies), who the lower
court, on its own and without evidence, conjectured,
“did not see a need” for HIV testing, App. A at 14, or
had not “thought to have him tested,” id. at 9,
“improperly ‘weigh[ed] the evidence’ and resolved
disputed issues in favor of the moving party.” Tolan,
572 U.S. at 657 (quoting Anderson, 477 U.S. at 249).
The panel’s failure to even consider Weaver’s own
deposition testimony that she actually knew the law
required J.D.D.’s testing is itself grounds for reversal.
Material under the first prong was whether Weaver
(a) knew the law required testing, yet (b) did nothing
to protect the infant J.D.D. by having him tested.
Despite the district court’s finding the risk factors
were “repeated numerous times throughout different
documents in J.D.D.’s DCF file” above the defendants’
names or signatures, App. B at 27, and despite the
court of appeals’ concession the federal statute’s
“ ‘laboratory tests’ includes screening for HIV,”
App. A at 12, the court below wholly ignored Weaver’s
own deposition testimony she actually knew at the
time the law required J.D.D.’s testing but did nothing.
Cf. H.A.L., 551 F.3d at 1231; Taylor, 818 F.2d at 795.
The court below thus wholly ignored Weaver’s
own deposition testimony that she had actual notice
of the law but did nothing, deciding each item of fair
notice in favor of the summary judgment movants.
This was the error in Tolan. See id. 572 U.S. at 657
(“In holding that [defendant’s] actions did not violate

31

clearly established law, the [lower court] failed to
view the evidence at summary judgment in the light
most favorable to [the plaintiff] with respect to the
central facts of this case. By failing to credit evidence
that contradicted some of its key factual conclusions,
the court improperly ‘weigh[ed] the evidence’ and
resolved disputed issues in favor of the moving party”)
(quoting Anderson, at 477 U.S. at 249); see also Tolan,
572 U.S. at 660 (“By weighing the evidence and
reaching factual inferences contrary to [plaintiff’s]
competent evidence, the court below neglected to
adhere to the fundamental principle that at the
summary judgment stage, reasonable inferences
should be drawn in favor of the non-moving party.”).
Though Weaver admitted having actual notice
that the law required J.D.D.’s testing, the court below
ignored that material evidence, and instead construed
each item of fair notice against the non-moving party,
thereby, as in Tolan, “lead[ing] to the inescapable
conclusion that the [lower court] credited the evidence
of the party seeking summary judgment and failed
properly to acknowledge key evidence offered by the
party opposing that motion.” Id., 572 U.S. at 659.
As to the first prong of qualified immunity
analysis, Weaver’s deposition testimony that she
knew communicable disease testing was required,
“[b]ut I don’t do that,” App. D, makes any question
whether she had “diagnose[d]” the risk, App. A at 12,
academic, because, resolving that factual issue in
favor of the non-moving party, Weaver would not
have had J.D.D. tested regardless of his medical
right or risk--epitomizing “deliberate indifference.”

32

A jury could find Weaver’s actual knowledge that
the law required J.D.D.’s testing, and circumstantial
evidence of her knowledge of risk factors “repeated
numerous times throughout different documents,”
above her name or signature, App. B at 27, coupled
with her deposition testimony, “[b]ut I don’t do that,”
App D, demonstrated her “deliberate indifference” to
Weaver’s serious medical need. Had the court below
correctly applied this Court’s standard in Saucier, it
would have found the summary judgment evidence
makes out a violation of J.D.D.’s constitutional right
to be kept free from unreasonable risk of harm while
held in state custody, precluding summary judgment.
Even assuming that factual reasonableness
should be considered in deciding the second prong of
qualified immunity analysis (cf., Sections I-III, ante),
although “the salient question” with respect to the
second prong, was “whether the state of the law” at
the time “gave [defendants] fair warning that their
alleged treatment of [J.D.D.] was unconstitutional,”
Hope, 536 U.S. at 741, Weaver could not “reasonably”
have concluded that “doing nothing to protect the
child[ ], given the circumstances,” H.A.L., supra
(citing Taylor, supra), by withholding legally required
“laboratory tests,” 42 U.S.C. § 1396d(r)(1)(B)(iv)
(which she admitted actually knowing at the time),
could comport with the Fourteenth Amendment.8
Indeed, Tolan suggests the danger of applying the wrong view
of the facts is even greater where, as here, the wrong view is
applied to both of the prongs: “Our qualified-immunity cases
illustrate the importance of drawing inferences in favor of the
nonmovant, even when, as here, a court decides only the clearlyestablished prong of the standard.” Id., at 657 (emphasis added).
8

33

A jury could easily find it was unreasonable not to
have J.D.D. tested by finding the need was obvious.
See Farmer, 511 U.S. at 842 (“Whether … official[s]
had the requisite knowledge of a substantial risk is a
question of fact subject to demonstration in the usual
ways, including inference from circumstantial
evidence … and a factfinder may conclude that a
prison official knew of a substantial risk from the very
fact that the risk was obvious”) (emphasis added).
The factual question was not for a court, but for a jury.
This case does not merely “question whether the
evidence in the summary judgment record is just
enough or not quite enough,” Tolan, 572 U.S. at 661
(Alito, J., concurring in the judgment), or rue entry of
a non-final decision holding that, if proven, the facts
would show a constitutional violation, so that, “even
without [the Court’s] intervention, qualified immunity
[would or] would not be available in any similar
future case,” Taylor v. Riojas, 19-1261, 2020 WL
6385693, at *3 (U.S. Nov. 2, 2020) (Alito, J.,
concurring in the judgment), but instead one in which
the lower court “conspicuously disregarded governing
Supreme Court precedent,” id., and did not consider
the non-movant’s submitted material evidence at all.
See Tolan, at 659 (granting certiorari “because the
opinion below reflects a clear misapprehension of
summary judgment standards in light of our
precedents”); Beard v. Aguilar, 572 U.S. 1110 (2014)
(Alito, J., with whom Scalia, J., joins, dissenting from
denial of certiorari, citing Tolan (Alito, J., concurring
in the judgment)); Thomas v. Nugent, 572 U.S. 1111
(2014) (granting certiorari, vacating judgment, and
remanding for further consideration in light of Tolan).

34

CONCLUSION
The Court should grant the writ of certiorari.
Respectfully Submitted,
ROBERTO D. STANZIALE, P.A.
110 Southeast Sixth Street
Seventeenth Floor
Fort Lauderdale, Florida 33301
Telephone: (954) 763-7909
rdstanzlaw@gmail.com
By: /s/ Roberto D. Stanziale
Roberto D. Stanziale, Esq.
Florida Bar No. 885304

Counsel for Petitioner

APPENDIX

__________
APPENDIX
__________

TABLE OF CONTENTS

Appendix A

Opinion in the United States Court of
Appeals for the Eleventh Circuit
(Mar. 13, 2020) . . . . . . . . . . . . . . . App. 1

Appendix B

Order of the United States District
Court, Middle District of Florida,
Tampa Division
(Sept. 27, 2018) . . . . . . . . . . . . . App. 15

Appendix C

Order of the United States Court of
Appeals for the Eleventh Circuit
Denying Rehearing
(July 28, 2020) . . . . . . . . . . . . . . App. 69

Appendix D

Excerpt from Deposition of
Wileen R. Weaver
(Nov. 3, 2017) . . . . . . . . . . . . . . . App. 70

i

BBBBBBBBBBBB
$33(1',; $
BBBBBBBBBBBB

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-14558
________________________
D.C. Docket No. 8:16-cv-00998-MSS-SPF

SHANE DAVIS,
Plaintiff-Appellant,
versus
MIKE CARROLL,
WILEEN R. WEAVER,
PAULINE RILEY,
Defendants-Appellees.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
(March 13, 2020)

App.001

Case: 18-14558

Date Filed: 03/13/2020

Page: 2 of 14

Before JILL PRYOR and GRANT, Circuit Judges, and ROYAL,* District Judge.
GRANT, Circuit Judge:
Discovering that someone has a serious, life-long illness can strike a terrible
blow. Especially when the one suffering is a child. That is the hardship J.D.D. and
his adoptive parents have endured since learning that J.D.D. was HIV-positive—a
condition he likely contracted at birth but that went unnoticed until he was 14 years
old. On behalf of his son, Shane Davis sued two state social workers for failing to
request an HIV screening when the State of Florida took custody of J.D.D. shortly
after his birth. The district court granted the social workers’ summary judgment
motion because it found that qualified immunity protected them from suit. After
careful review and with the benefit of oral argument, we affirm.
I.
J.D.D. was born in a hospital on April 10, 2000, to a mother who was
tragically unfit for parenting. Shortly after his birth, the hospital filed an abuse
report with the Pinellas County Sheriff’s Office. The report explained that
J.D.D.’s mother tested positive for cocaine, that she had no prenatal care, and that
other children had already been removed from her care.1
*

Honorable C. Ashley Royal, Senior District Judge of the Middle District of Georgia, sitting by
designation.
1

The parties dispute many of the relevant facts. Because this case comes to us after the district
court granted the defendants’ motion for summary judgment, we draw all inferences in favor of
Davis.
2
App.002

Case: 18-14558

Date Filed: 03/13/2020

Page: 3 of 14

After his birth, J.D.D. remained at the hospital for a week because of
complications stemming from his cocaine exposure, low birthweight, and low
oxygen. When he was released, the Florida Department of Children and Families
took custody of him directly from the hospital. At that time, the hospital provided
the department with an Infant Discharge Summary, which noted several normal
findings about J.D.D.’s health—but said nothing about HIV. No records suggest
that the hospital tested him for HIV.
Within ten days of J.D.D.’s hospital discharge, social workers Wileen
Weaver and Pauline Riley, the defendants here, were working with J.D.D. They
soon learned about his case. Case staffing notes record that the last four children
from J.D.D.’s mother tested positive for cocaine and were then cared for by family
members. Riley also knew that J.D.D.’s mother had little or no prenatal care and
that J.D.D. himself had been exposed to cocaine at birth. And Weaver had access
to J.D.D.’s file, which contained information about both the lack of prenatal care
and his cocaine exposure. Neither Weaver nor Riley sought HIV screening.
An investigator for the Sheriff’s Office later petitioned a county court to
place J.D.D. in foster care. The petition summarized other abuse reports filed after
J.D.D.’s mother had given birth to her previous children. One case summary
mentioned alleged “domestic violence,” and noted that J.D.D.’s “mother ‘smokes
crack like it was cigarettes.’” Other police investigations in 1993 and 1995
3
App.003

Case: 18-14558

Date Filed: 03/13/2020

Page: 4 of 14

uncovered that J.D.D.’s mother had been treated for heroin and had been arrested
in 1983 for soliciting prostitution, but the custody petition for J.D.D. did not
include these details. “To the best of writer’s knowledge,” the petition read,
“mother has no criminal history.” The petition also stated that “neither the mother
nor the child has any medical problems or physical abnormalities.”
J.D.D. was placed with a foster family that same year. J.D.D.’s foster
parents took him to see Dr. Richard Gonzalez for typical childhood illnesses like
common colds and asthma. Like the hospital staff, Dr. Gonzalez knew about
J.D.D.’s cocaine exposure, and about his mother’s drug addiction and lack of
prenatal care. And like the hospital staff, Dr. Gonzalez did not pursue HIV
screening for J.D.D.
Shane and Patricia Davis adopted J.D.D. when he was three years old.
Eleven years later, at age fourteen, J.D.D. developed thrush, a mouth infection
somewhat common for infants but rare for teenagers. His infection prompted
physicians to conduct immunological testing. The doctors diagnosed him with
AIDS, and treatment began immediately.
Dr. Carina Rodriguez, who treated J.D.D. after his diagnosis, said that
J.D.D. probably contracted HIV at birth from his mother, although no direct
evidence shows that she had HIV. The doctor also explained that HIV-positive
newborns are usually asymptomatic at birth. Another expert opined that if J.D.D.
4
App.004

Case: 18-14558

Date Filed: 03/13/2020

Page: 5 of 14

had been tested and treated for HIV within six weeks of his birth, “it is highly
unlikely he would have developed an HIV infection, and highly unlikely that his
HIV infection would have progressed to AIDS.”
About two years after J.D.D.’s diagnosis, his adoptive father sued social
workers Weaver and Riley in their individual capacities.2 Davis’s second amended
complaint alleged that they were liable under 42 U.S.C. § 1983 for violating
J.D.D.’s clearly established federal rights. Specifically, Davis claimed that by not
requesting HIV screening, Weaver and Riley showed deliberate indifference to
J.D.D.’s serious risk of contracting HIV. Davis also alleged violation of J.D.D.’s
federal right to prompt medical assistance under the Medicaid Act. See 42 U.S.C.
§ 1396a(a)(8). The district court disagreed, and granted the defendants’ motion for
summary judgment based on qualified immunity. Davis now appeals.

2

He also sued Weaver, Riley, and the Secretary of the Florida Department of Children and
Families in their official capacities. The district court granted the defendants’ motion for
summary judgment on these claims, and Davis does not challenge that decision on appeal.
5
App.005

Case: 18-14558

Date Filed: 03/13/2020

Page: 6 of 14

II.
We review de novo the district court’s granting of a summary judgment
motion based on qualified immunity. Whittier v. Kobayashi, 581 F.3d 1304, 1307
(11th Cir. 2009) (per curiam). In doing so, we “resolve all issues of material fact
in favor of the plaintiff, and then, under that version of the facts, determine the
legal question of whether the defendant is entitled to qualified immunity.” Id.
III.
On appeal, Davis challenges the district court’s determination that qualified
immunity shields Weaver and Riley from suit. “In order to receive qualified
immunity, the public official must first prove that he was acting within the scope of
his discretionary authority when the allegedly wrongful acts occurred.” Carruth v.
Bentley, 942 F.3d 1047, 1054 (11th Cir. 2019) (quotation marks and citation
omitted). The parties agree that Weaver and Riley were acting within the scope of
their discretionary authority as foster caseworkers. Given this agreement, the
burden shifts to Davis “to show that qualified immunity is not appropriate.” Id.
(citation omitted).
To defeat qualified immunity, Davis must show that the defendants “violated
clearly established federal statutory or constitutional rights of which a reasonable
person would have known.” Priester v. City of Riviera Beach, 208 F.3d 919, 926
(11th Cir. 2000). He contends both that Weaver and Riley were deliberately
6
App.006

Case: 18-14558

Date Filed: 03/13/2020

Page: 7 of 14

indifferent to J.D.D.’s serious risk of HIV and that they violated his clearly
established federal statutory right to HIV screening. Neither argument persuades
us.
A.
We have held that “a foster child can state a 42 U.S.C. § 1983 cause of
action under the Fourteenth Amendment if the child is injured after a state
employee is deliberately indifferent to a known and substantial risk to the child of
serious harm.” H.A.L. ex rel. Lewis v. Foltz, 551 F.3d 1227, 1231 (11th Cir. 2008)
(per curiam) (citing Taylor v. Ledbetter, 818 F.2d 791, 794–96 (1987) (en banc)).
“To survive summary judgment on a deliberate indifference failure-to-protect
claim, a plaintiff must produce sufficient evidence of (1) a substantial risk of
serious harm; (2) the defendants’ deliberate indifference to that risk; and
(3) causation.” Caldwell v. Warden, FCI Talladega, 748 F.3d 1090, 1099 (11th
Cir. 2014) (quotation marks and citation omitted).
For the second element—deliberate indifference to the risk—“a plaintiff
must produce evidence that the defendant actually (subjectively) knew” about the
“substantial risk of serious harm.” Id. (punctuation and citation omitted). In other
words, “a state official acts with deliberate indifference only when he disregards a
risk of harm of which he is actually aware.” Ray v. Foltz, 370 F.3d 1079, 1083
(11th Cir. 2004) (citing Farmer v. Brennan, 511 U.S. 825, 836 (1994)). It is not
7
App.007

Case: 18-14558

Date Filed: 03/13/2020

Page: 8 of 14

enough for the official to “be aware of facts from which the inference could be
drawn that a substantial risk of serious harm exists”—“he must also draw the
inference.” Farmer, 511 U.S. at 837. That said, proving actual awareness does not
require a smoking gun; a factfinder could conclude that an “official knew of a
substantial risk from the very fact that the risk was obvious.” Id. at 842.
Davis does not have any direct evidence that Weaver and Riley were
actually aware of a substantial risk that J.D.D. (or even his mother) had HIV. In
Davis’s view, though, J.D.D.’s mother had such an obvious risk of HIV that
Weaver and Riley must have concluded that by extension J.D.D. also faced a
substantial risk. After all, he says, J.D.D.’s mother had multiple risk factors: her
lack of prenatal care, use of cocaine, removal of four of her previous children for
drug exposure, domestic violence, and J.D.D.’s ambiguous paternity.
We do not view the risk as being obvious. Like most newborns with HIV,
J.D.D. did not have any physical symptoms. Although Davis sees warning signs of
the hidden illness, several of his proposed risk factors would show little or no risk
at all. Davis says one risk factor is the uncertainty of J.D.D.’s paternity. Yet
record documents repeatedly reference Ernest “Keith” Majors as the biological
father, and Davis has not directed us to any contrary evidence. Moreover, there is
no reason that an allegation of domestic violence would suggest an HIV risk—
especially when that allegation, as the custody petition for J.D.D. noted, resulted in
8
App.008

Case: 18-14558

Date Filed: 03/13/2020

Page: 9 of 14

a closed case “with no indicators of any abuse or neglect.” Even the strongest risk
factor, cocaine usage, may not be strong as it first appears: the record reflects that
J.D.D.’s mother mainly—if not exclusively—ingested cocaine through smoking
rather than injection. For example, the petition filed by an investigator in J.D.D.’s
case only discusses his mother as “smok[ing] crack.”
More importantly, although J.D.D. received treatment from several medical
professionals, none of them thought to have him tested for HIV. Hospital staff and
doctors cared for J.D.D. not only at his birth but also for his week-long stay after
his birth. The hospital’s abuse report shows that medical staff knew that J.D.D.
was exposed to his mother’s cocaine, that his mother had no prenatal care, and that
J.D.D. had low oxygen. Still, they did not request HIV screening. In fact, the
hospital’s Infant Discharge Summary noted several normal health findings for
J.D.D., and did not so much as hint about the possibility of HIV. Nor did Dr.
Gonzalez, who saw J.D.D. many times during his time in foster care, detect the
need for screening—even though he also knew about J.D.D.’s cocaine exposure
and his mother’s addiction. Under these circumstances, a jury could not
reasonably conclude that a substantial risk of HIV was obvious to social workers
when the risk was overlooked by many medical professionals.
Davis counters that only the defendants (and not the doctors and nurses)
were aware that J.D.D.’s mother had been treated for prior heroin use and had been
9
App.009

Case: 18-14558

Date Filed: 03/13/2020

Page: 10 of 14

arrested in the 1980’s for soliciting prostitution. It strikes us as speculative to
assume that they would have known this information because, as the district court
explained, these details were “not included in any document summarizing J.D.D.’s
case or on any document containing Weaver and Riley’s signature.” Instead, these
facts came from police abuse reports for previous children of J.D.D.’s mother.
Even if we assume that the defendants read the old police reports, we could
not embrace Davis’s argument. True, the prostitution arrest and heroin usage raise
a yellow flag. But they do not make the risk obvious. And at any rate, the older
police reports were undermined by the custody petition filed by an investigator in
J.D.D.’s own case—which said that, to the best of the author’s knowledge,
J.D.D.’s “mother has no criminal history,” and that “neither the mother nor the
child has any medical problems or physical abnormalities.” Lacking evidence that
the risk was obvious, Davis can only hope to show that the defendants were
negligent—but “deliberate indifference entails something more than mere
negligence.” Farmer, 511 U.S. at 835.
In short, the record does not show that Weaver and Riley actually inferred
that J.D.D. had a substantial risk of contracting HIV. No actual inference of risk
means no deliberate indifference. And without deliberate indifference, there can
be no constitutional violation—clearly established or otherwise. The defendants
are thus immune from suit on this claim.
10
App.010

Case: 18-14558

Date Filed: 03/13/2020

Page: 11 of 14

B.
Next, Davis points to the Medicaid Act to overcome qualified immunity.
Under the Act, Florida must create a plan that provides “medical assistance” with
“reasonable promptness to all eligible individuals.” 42 U.S.C. § 1396a(a)(8)
(2000); see id. § 1396a(a)(10) (listing covered individuals). That medical
assistance includes early and periodic screening, such as “laboratory tests” and
other treatment “to correct or ameliorate defects” and physical “illnesses and
conditions.” Id. § 1396d(r)(1)(B)(iv), (5).
To the extent Davis seeks to tack this statutory argument onto his
constitutional one, his attempt flounders. We have already explained that the
defendants did not violate J.D.D.’s constitutional rights. And officials “sued for
constitutional violations do not lose their qualified immunity merely because their
conduct violates some statutory or administrative provision.” Davis v. Scherer,
468 U.S. 183, 194 (1984).
At the same time, “we have acknowledged the possibility that some federal
statutory provisions will be sufficiently clear on their own to provide defendants
with fair notice of their obligations under the law.” Gonzalez v. Lee Cty. Hous.
Auth., 161 F.3d 1290, 1301 (11th Cir. 1998). To provide sufficient notice to
Weaver and Riley, the statutory provisions and regulations must be so clear that
any “reasonable public official, having read the plain terms of this statute, certainly
11
App.011

Case: 18-14558

Date Filed: 03/13/2020

Page: 12 of 14

would have understood that federal law makes it unlawful” not to request HIV
screening. Id. at 1302.
That level of clarity is not present here. None of the provisions Davis cites,
as the district court put it, “mandate HIV testing specifically, nor do they
unmistakably instruct that the failure to refer a child for such a test is illegal.” We
do not doubt that a state plan’s required coverage of “laboratory tests” includes
screening for HIV. Still, we cannot say that this language puts social workers on
notice that they must diagnose an HIV risk and pursue screening, or else face
personal financial liability.
To be sure, we have identified “a federal right to reasonably prompt
provision of assistance under section 1396a(a)(8) of the Medicaid Act.” Doe 1-13
ex rel. Doe, Sr. 1-13 v. Chiles, 136 F.3d 709, 719 (11th Cir. 1998). Although
Davis leans on this holding in Doe, the case cannot withstand the weight he
understandably wishes to place on it. There, Medicaid-eligible patients waited
several years for treatment of their known medical conditions. Id. at 711. We held
that they had a federal right, enforceable through § 1983, to prompt state treatment
under the Medicaid Act. Id. at 715–19. But a state’s duty to provide prompt care
for known medical needs does not imply—let alone “clearly establish”—that an
individual social worker must request specific tests for an unknown medical need.

12
App.012

Case: 18-14558

Date Filed: 03/13/2020

Page: 13 of 14

Nor would state law have put Weaver and Riley on notice. According to a
Florida statute, the Department of Children and Families “is authorized to have a
medical screening performed on the child.” Fla. Stat. § 39.407(1) (1999). The
statute also says that the “medical screening shall be performed by a licensed
health care professional and shall be to examine the child for injury, illness, and
communicable diseases.” Id. Davis argues that the statute “clearly and
unequivocally states DCF ‘shall’ have the child examined for illness and
‘communicable diseases.’” We do not read the statute to authorize screening in
one sentence only to mandate screening in the next. The “shall be” language does
not obligate social workers to initiate any screening; rather, that language explains
who can perform medical screening and what kind of screening the department is
authorized to request. Far from creating a clear requirement to initiate screening,
the language becomes relevant only after a social worker decides to pursue a
screening.
Davis also looks to a now-repealed Florida regulation to make up for the
law’s lack of clarity on the screening issue. The regulation provided several
examples of children who “should be considered at risk” and “should be tested” for
HIV. Fla. Admin. Code. R. 65C-13.017(7) (1992) (repealed in 2008). Those
children include any “abandoned newborn” and children who tested positive for
“drugs commonly self-administered by injection,” although the regulation also
13
App.013

Case: 18-14558

Date Filed: 03/13/2020

Page: 14 of 14

notes that hospital “staff will normally discover these [drug-positive] children and
request appropriate permission” for testing. Id. We can assume for argument’s
sake that J.D.D. “should” have been considered at risk. But should indicates a
recommendation, not a requirement. Again, hospital staff and doctors—those who,
as the regulation indicates, are often best positioned to detect the need for testing—
also did not see a need for HIV screening. Simply put, none of the statutes or
regulations commanded Weaver and Riley to detect the HIV risks and request
screening.
*

*

*

At bottom, no federal law mandated HIV screening here—much less
“clearly established” such a requirement. Weaver and Riley are therefore immune
from suit. We AFFIRM the judgment of the district court.

14
App.014

@@@@@@@@@@@@
"11&/%*9 #
@@@@@@@@@@@@
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
SHANE DAVIS, on behalf of J.D.D., a
minor child,
Plaintiff,
v.

Case No: 8:16-cv-998-T-35MAP

MIKE CARROLL,1 in his official
capacity as Secretary of the Florida
Department of Children and Families,
WILEEN R. WEAVER, in her official and
individual capacities as Family
Services Counselor for the Florida
Department of Children & Families, and
PAULINE RILEY, in her official and
individual capacities as Family
Services Counselor Supervisor for
Florida Department of Children &
Families,
Defendants.
ORDER
THIS CAUSE comes before the Court for consideration of Plaintiff’s Motion for
Partial Summary Judgment as to Liability of Defendants Weaver & Riley, (Dkt. 87),
Defendants’ response in opposition thereto, (Dkt. 98), and Plaintiff’s reply, (Dkt. 99);
Defendants’ Motion for Summary Judgment with Request for Oral Argument, (Dkt. 104),
Plaintiff’s response in opposition thereto, (Dkt. 110), and Defendants’ reply, (Dkt. 116);
Plaintiff’s Amended Motion for Partial Summary Judgment for Declaratory and Injunctive

1 Defendant Carroll has left his role as secretary of DCF effective September 6, 2018.
Pursuant to Rule 25(d) of the Federal Rules of Civil Procedure, the Interim Secretary, Rebecca
Kapusta, is automatically substituted for Defendant Carroll in this suit. To avoid confusion, the
name remains the same in the style of the case and body of this Order.

App.015

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 2 of 54 PageID 4914

Relief as to Defendant Mike Carroll (as to Count IV Only), (Dkt. 115), Defendants’
response in opposition thereto, (Dkt. 120) and Plaintiff’s reply, (Dkt. 121); Plaintiff’s
Daubert Motion to Disqualify Expert Witness John S. Harper, (Dkt. 88), and Defendants’
response in opposition thereto, (Dkt. 98); and Plaintiff’s Objection to Defendants’
Untimely Filing of Unauthenticated Papers and Inadmissible Hearsay Incapable of Being
Made Admissible, (Dkt. 113), and Defendant’s response in opposition thereto.

(Dkt.

119) Upon consideration of all relevant filings, case law, and being otherwise fully
advised, the Court GRANTS Defendants’ Motion for Summary Judgment, (Dkt. 104),
DENIES Plaintiff’s Motion for Partial Summary Judgment as to Liability of Defendants
Weaver & Riley, (Dkt. 87), and DENIES Plaintiff’s Amended Motion for Partial Summary
Judgment for Declaratory and Injunctive Relief as to Defendant Mike Carroll (as to Count
IV Only), (Dkt. 115), for the reasons that follow.

Plaintiff’s Daubert Motion to Disqualify

Expert Witness John S. Harper, (Dkt. 88), is DENIED AS MOOT.
I.

BACKGROUND
A.

Procedural History

Shane Davis (“S. Davis”) filed this action on April 25, 2016 on behalf of his
adopted son J.D.D., a minor child (“Plaintiff”), two years after J.D.D. was diagnosed with
HIV/AIDS.

(Dkt. 1) On July 7, 2016, Plaintiff amended his complaint as a matter of

course, (Dkt. 12), and on August 23, 2016, Plaintiff filed a Second Amended Complaint
after obtaining the Court’s leave to do so, asserting claims pursuant to 42 U.S.C. § 1983
against Mike Carroll (“Carroll”), in his official capacity as Secretary of the Florida
Department of Children and Families (“DCF”), Wileen Weaver, n/k/a Randall (“Weaver”),
in her official and individual capacities as a Family Services Counselor for DCF, and

2

App.016

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 3 of 54 PageID 4915

Pauline Riley (“Riley”), in her official and individual capacities as a Family Services
Counselor Supervisor for DCF (collectively, “Defendants”).

(Dkt. 17) In Counts I, II,

and III of the Second Amended Complaint, Plaintiff asserts claims against Weaver and
Riley in their official and individual capacities for violating J.D.D.’s federal statutory rights
to Early Periodic Screening, Diagnosis, and Treatment (“EPSDT”) and “outreach
services” under Title XIX of the Social Security Act, 42 U.S.C. § 1396 et seq. and for
violating J.D.D.’s constitutional right to due process under the Fourteenth Amendment
for failing to have him tested for HIV while he was in the custody of DCF.

(Id. at 11–14)

Count IV of the Second Amended Complaint asserts the same federal statutory and
constitutional violations as to Defendant Carroll in his official capacity, but seeks only
declaratory and prospective injunctive relief for DCF’s ongoing failure to notify J.D.D. and
his parents of available Medicaid benefits.

(Id. at 15–16)

On February 28, 2018, Plaintiff moved for partial summary judgment as to the
liability of Weaver and Riley.

(Dkt. 87) On March 2, 2018, all three Defendants filed a

cross-motion for summary judgment.

(Dkt. 104) On March 15, 2018, Plaintiff moved

for partial summary judgment as to Count IV, the claim against Carroll. (Dkt. 115)

For

the reasons that follow, the Court grants summary judgment in favor of Defendants on all
counts.
B.

Factual Background

At the outset, the Court issued an Order directing the Parties to file a stipulation of
agreed material facts due on the date the response to any motion for summary judgment
was due.

(Dkt. 82 at II.H.1) The Parties failed to file any such stipulation for any of the

three motions for summary judgment filed. Thus, against a hotly disputed record, the

3

App.017

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 4 of 54 PageID 4916

Court must determine whether any portion of this matter can be resolved as a matter of
law.

The material facts, which the Court construes in the light most favorable to the

Plaintiff for purposes of the Defendants’ motion, are as follows.
1.

J.D.D.’s birth and removal into DCF Custody

J.D.D. was born on April 10, 2000 at Bayfront Medical Center. (Dkts. 87 at 1; 98
at 3) At the time of his birth, J.D.D.’s birth mother, Angela Davis (“A. Davis”) tested
positive for cocaine.

(Dkt. 87-1 at 32)

J.D.D. remained hospitalized for seven days

following his birth and was treated for exposure to cocaine, low birthweight, and low
oxygen.

(Dkts. 87 at 2; 98 at 3) The circumstances of J.D.D.’s birth were reported by

a Bayfront Medical Center social worker to the Pinellas County Sheriff’s Office (“PSCO”)
Child Protection Division in an Abuse Report, which advised that A. Davis tested positive
for cocaine and “knew she would,” and that she had no prenatal care.

(Dkt. 87-1 at 11;

Dkt. 104-5) The Abuse Report also indicated that A. Davis had prior children removed
from her custody.

(Dkt. 104-5) An investigation commenced, and on April 17, 2000,

J.D.D. was taken into DCF custody directly from the hospital.2 (Dkt. 87-1 at 47, 54)
J.D.D.’s Infant Discharge Summary3 from Bayfront Medical Center indicates that he met
certain health criteria at the time of his discharge into DCF custody, including “Stooling
appropriately,” “Monitor site healing,” “Skin clear,” “Umbilical cord healing,” “Feeding

2 Defendants appear to dispute that J.D.D. was placed into DCF’s custody at this time, pointing
to an agreement between the PCSO and DCF in which the PCSO was contracted to administer
and control the Emergency Shelter Division. (Dkts. 98 at 4; 104 at 10) Based on this
agreement, it is Defendants’ position that J.D.D. was placed in the custody of the PCSO and not
DCF when he was discharged from the hospital. (Id.) However, Shorter’s Detention Petition
expressly states that J.D.D. was taken into custody by DCF on April 17, 2000, (Dkt. 87-1 at 47),
and Defendants have admitted that “J.D.D. was placed in the custody of DCF on April 17, 2000.”
(Id. at 1) Nevertheless, to the extent that this fact is disputed, the Court does not find that it is
material to the resolution of the summary judgment motions.
3 Plaintiff’s objection to Dkt. 98-1 is overruled. See discussion infra.

4

App.018

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 5 of 54 PageID 4917

appropriately,” “Voiding appropriately,” “Color pink,” “Eyes clear,” “Circumcision healing,”
and “Temperature [greater than or equal to] 97.6 to [less than or equal to] 99.6
[degrees].” (Dkt. 98-1)

Under a section labeled “Hearing Screen,” there is a check

mark indicating that an “OAE,” or otoacoustic emissions hearing screen, was completed
and that follow-up was required.

(Id.) There is no other documentation provided in the

record to determine what medical testing or treatment was or was not administered
during those seven days.
Defendants admit that Weaver was assigned as one of J.D.D.’s family service
counselors by the time he was discharged from the hospital on April 17, 2000.

(Dkt.

87-1 at 2) At her deposition, Weaver insisted that if J.D.D. was born in the hospital, he
would have had a health screening, and that DCF would not have taken a child who had
not had a screening.

(Dkt. 87-2 at 22:14–18, 23:8–10) However, crediting Plaintiff’s

version of the facts for purposes of this Order, the Court does not accept this to be true
with respect to J.D.D.

On the same day that J.D.D. was discharged from the hospital,

PSCO Protective Investigator, Jewel Shorter (“Shorter”) filed a Detention Petition in the
Circuit Court of the Sixth Judicial Circuit of the State of Florida in and for Pinellas County
Juvenile Division to temporarily shelter J.D.D. from his parents, A. Davis and Ernest
“Keith” Majors (“Majors”).

(Dkt. 87-1 at 54–55)

Therein, Shorter checked a box

indicating that, as an appropriate reason for J.D.D.’s removal, allowing him to return to
the family home presented “substantial and immediate danger.”

(Id. at 54)

Specifically, Shorter wrote: “The mother has abused crack cocaine since she was 19
years old, the mother has used cocaine throughout her pregnancy [and] tested positive

5

App.019

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 6 of 54 PageID 4918

for cocaine [at] the birth of [J.D.D.].”

(Id.) Further, Shorter added the following in

support of her Petition:
The mother has seven children, the last four have all tested positive for
cocaine. The other children remain with relatives. The mother admits to
smoking at least one rock per day during her pregnancy. The child’s
father was incarcerated in Atlanta, GA. He was released on 4/15/00, but
is unable to obtain custody of his son [at] this time. It is therefore
recommended that [care, custody, and control] of [J.D.D.] be place[d] w[ith]
the Dept. of Child[ren] [and] Fam[ilies] Shelter.
(Id. at 50)

On April 18, 2000, the state court judge signed an Order on Shelter Hearing,

directing that J.D.D. shall remain in the “shelter” custody of DCF, with parental visitation
to be supervised by PCSO.

(Id. at 50)

On April 27, 2000, DCF held a “staffing” of

J.D.D.’s case for Foster Care, and by that time, Riley was J.D.D.’s Family Services
Counselor Supervisor.

(Id. at 2, 53)

The presenting concerns set forth in the

document entitled “Case Staffing” were as follows:
children tested positive for cocaine.

“Mom has 7 children, the last 4

[T]here have been fam[ily] members who’ve

provided care for the six children but [at] this time there are no relatives available for this
ch[ild].”

(Id. at 53)

The Case Staffing document also identified five tasks for the Child

Protective Investigations unit to handle, including: all court work, child in care packet,
bi-weekly visits, a pre-disposition study, and a case plan.

(Id.) At this time, the Foster

Care/Adoption Related Services unit appears to have been tasked with handling
bi-weekly visits until disposition.

(Id.)

Defendants admit that around the time of the staffing, when Riley became
J.D.D.’s Family Services Counselor Supervisor, she would have had knowledge that A.
Davis had limited or no prenatal care, that four of her previously born children were
removed from her custody due to illicit drug exposure, and that J.D.D. had been exposed

6

App.020

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 7 of 54 PageID 4919

to cocaine at birth.

(Dkt. 87-1 at 2–3) Defendants do not admit that Weaver had

knowledge of these circumstances.

(Dkt. 87-1 at 2; Dkt. 98 at 9) Although she does

not recall J.D.D. specifically, Weaver stated generally at her deposition that she would
not have known the totality of the information in a child’s file.

(Dkt. 87-2 at 42:3–12)

However, Plaintiff argues that Weaver was present at the April 27, 2000 staffing,
signed documents that contained this information, and that she had access to J.D.D.’s
file which contained this information; thus, the evidence indicates that she would have
had knowledge of those circumstances as well.

(Dkt. 87 at 4–6) For purposes of this

Order, the Court finds that Weaver possessed this knowledge.
Consistent with the directives in the Case Staffing document, a Pre-Disposition
Study for Dependency (“PDS”) was prepared by Shorter detailing the circumstances of
J.D.D.’s case and recommending that J.D.D. be placed in foster care pending A. Davis’s
completion of case plan tasks.

(87-1 at 32–34) Therein, Shorter states that A. Davis

was initially interviewed at the hospital after J.D.D.’s birth, where she admitted to having
“sporadic prenatal care” and use of “cocaine (crack only)” during her pregnancy, the last
time being one day prior to J.D.D.’s birth.

(Id. at 32) The PDS also stated that Majors,

J.D.D.’s biological father, was not interviewed because he was in Atlanta.

(Id.) The

PDS contained a section entitled “Prior Case History,” detailing four prior reports to Child
Protective Services, three in which the agency reported that A. Davis gave birth to a child
and tested positive for cocaine, resulting in the removal of that child from her custody,
and one alleging domestic violence.

(Id.) As to the domestic violence incident, the

PDS alleged that A. Davis “smokes crack like it was cigarettes.” (Id.) Under a section
labeled “Criminal History and Dispositions,” Shorter wrote:

7

App.021

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 8 of 54 PageID 4920

To the best of writer’s knowledge mother has no criminal history. Father’s
criminal history is currently unknown, although mother advised that father
recently was in Pinellas County Jail due to a warrant for his arrest. Father
allegedly has a history of drug charges himself and his recent incarceration
was due to theft charge.
(Id. at 33) Under a section labeled “Health and Medical Assessments,” Shorter wrote:
“To the best of this writer’s knowledge neither the mother nor the child has any medical
problems or physical abnormalities.” (Id. at 34)

The PDS is signed by Shorter and a

person named Patricia Murphy of the “CPIS Unit,” and contains the handwritten date
May 31, 2000.

(Id.) That same day, J.D.D. was adjudicated dependent.

(Id. at 14–

17)
A Judicial Review Social Study Report/Case Plan Update, signed by both Weaver
and Riley on August 25, 2000, indicates that on June 5, 2000, J.D.D. was placed into
foster care.

(Id. at 36)

The document contains a summary of J.D.D.’s reason for

placement in foster care, including that A. Davis tested positive for cocaine at his birth,
had no prenatal care, and that the case was closed with verified findings of “drug
dependent newborn.” (Id.) The document further states that DCF services that were
being provided to J.D.D. at that time included (1) assistance with achieving goals, (2)
transportation, and (3) medical assistance.

(Id. at 41)

Kevin Clifford (“Clifford”),

J.D.D.’s foster father, testified in his deposition that he and his wife took J.D.D. to various
medical appointments during the 2000–2003 time period in which they fostered J.D.D.
(Dkt. 104-2 at 9:15–25; 10:1–22)

Specifically, Clifford stated that during this time,

J.D.D. was treated by Dr. Richard Gonzalez (“Dr. Gonzalez”) at Suncoast Krug Medical
Center (“Krug”) for thrush, asthma, as well as “[t]he usual colds, runny noses, sniffles,
that type of thing,” and he received immunizations “[a]s required by the doctor’s office.”

8

App.022

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 9 of 54 PageID 4921

(Id. at 21:6–20) The Cliffords’ adult daughter who eventually adopted J.D.D., Patricia
Davis (“P. Davis”), testified that she occasionally accompanied her parents to J.D.D.’s
doctor appointments at Krug.

(Dkt. 115-3 at 19:1–7)

Gonzalez was aware of J.D.D.’s mother’s addiction.

P. Davis testified that Dr.

(Id. at 25:5–22) Specifically, she

testified that she and her parents told Dr. Gonzalez that J.D.D. was born with cocaine
exposure and the DCF paperwork that they gave to him indicated that J.D.D.’s mother
“was a crack addict” and had “no prenatal care.”
2.

(Id.)

J.D.D.’s Adoption and HIV/AIDS Diagnosis

J.D.D.’s birth parents were not cooperative with DCF’s case plan. (Dkt. 87-1 at
44, 60) Thus, DCF recommended that J.D.D.’s case be “staffed for Adoptions.” (Id. at
60) On August 6, 2003, J.D.D. was adopted by S. Davis and P. Davis.

(Dkt. 87 at 2;

Dkt. 104 at 4–5) Approximately eleven years later, when J.D.D. was fourteen years old,
he developed thrush, an oral infection in the mouth.

(Dkt. 98-10 at 69; Dkt. 110-2 at 13)

Medical authorities suspected an immunological condition and tested J.D.D. for HIV.
(Dkt. 98-10 at 69; Dkt. 110-2 at 13)

On June 13, 2014, J.D.D. was informed that he had

tested positive for HIV, which by then had progressed to full-blown AIDS.

(Dkt. 87-4 at

36:4–9; 98-10 at 74; Dkt. 110-2 at 13)
Within hours of his diagnosis, J.D.D. began treatment with Dr. Carina Rodriguez
(“Dr. Rodriguez”), Division Chief of Pediatric Infectious Diseases at USF Health.

(Dkt.

87-4 at 29:17–23, 30:1–5; 34:1) Dr. Rodriguez testified that J.D.D. was placed on
prophylaxis immediately, and within a few days he was started on highly active
antiretroviral therapy (“HAART”).

(Id. at 36:13–17)

Currently, Dr. Rodriguez sees

J.D.D. every three months, and she states that he “has improved significantly” since

9

App.023

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 10 of 54 PageID 4922

beginning treatment. (Id. at 37:3–17)

Dr. Rodriguez stated that she was unable to

review all of J.D.D.’s medical records, as some had been destroyed due to the passage
of time.

(Id. at 42:4–7; 115-3 at 45:3–12)

However, based on her review of the

available records, Dr. Rodriguez opined that J.D.D. most likely contracted HIV at birth via
vertical transmission from A. Davis.

(Id. at 43:17–25; 44:1–16; 59:10–20)

Dr.

Rodriguez based this opinion on J.D.D.’s low CD4 levels at the time of his diagnosis as
well as the fact that J.D.D. told physicians that he was not sexually active or involved in
any illicit drug activity.

(Id.)

Dr. Rodriguez also testified that most HIV-positive

newborns are asymptomatic at birth.

(Id. at 12:12–24)

Dr. Jay H. Tureen (“Dr. Tureen”), Plaintiff’s expert witness in the fields of
Pediatrics and Pediatric Infectious Diseases also opines that J.D.D.’s is “a case of
perinatally acquired HIV infection which was silent for any AIDS-defining illness for 14
years, until the presence of thrush and symptoms of esophagitis prompted his evaluation
for HIV infection,” which was confirmed upon testing his blood for the virus.

(Dkt. 87-7

at 2) Further, Dr. Tureen states that, to a reasonable degree of medical probability, had
J.D.D. been properly tested, diagnosed, and treated within 6 weeks of birth, “it is highly
unlikely he would have developed an HIV infection, and highly unlikely that his HIV
infection would have progressed to AIDS.”
medical testimony to the contrary.

(Id.)

Defendants do not proffer any

However, both Dr. Rodriguez and Dr. Tureen

conceded that if A. Davis did not have HIV, their opinions that J.D.D. contracted the virus
at birth would change.4 (Dkt. 98-10 at 87:15–19; Dkt. 87-4 at 47:12–16)

4 Defendants argue a lack of evidence that A. Davis has HIV undermines the medical testimony
that J.D.D. most likely contracted the virus at birth. (Dkt. 98 at 13) The Court notes that it is
not entirely clear to what degree of medical certainty Plaintiff’s medical experts rendered this
opinion absent knowledge of A. Davis’s HIV status. Clifford recalls at some unknown point

10

App.024

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 11 of 54 PageID 4923

Weaver and Riley admit that they did not conduct any screening or testing on
J.D.D., (Dkt. 87-1 at 2–3), and that they have no personal knowledge of any HIV test
having been administered to J.D.D. while in their custody.

(Dkt. 110-2 at 4)

Based on

the admissions, the expert testimony that J.D.D. most likely contracted HIV at birth and
the absence of any records indicating that he had ever been tested for HIV prior to 2014,
Plaintiff argues that J.D.D. was never tested for HIV while in DCF custody.

However,

Clifford recalls being told by a social worker named Tavey Garcia that J.D.D. had been
tested for HIV as an infant and that he had been cleared.

(Dkt. 104-2 at 31:18–19;

32:14–18) S. Davis and P. Davis, also recall specifically asking Tavey Garcia whether
J.D.D. had been tested for HIV and being told that he had been and was cleared.

(Dkt.

98-8 at 20:16–23; Dkt. 115-3 at 30:16–21) Defendants speculate that based on this
testimony, J.D.D. may have been tested for HIV at the hospital after birth with the tests
resulting in a false negative. 5

(Dkt. 98 at 6)

Despite this testimony, which is

inadmissible in any event as hearsay, the Court credits Plaintiff’s version of the facts and
assumes for purposes of this Order that J.D.D. was never tested for HIV prior to 2014.
Weaver testified that she did not normally authorize medical screenings for
children because typically prior to coming to her care a child would have already
learning that A. Davis has HIV by seeing one of her medical records, though no such document
has been offered as evidence. (Dkt. 104-2 at 30:1–18) S. Davis recalls that a representative
from the State Department came to their home looking for J.D.D. sometime around 2014 after
J.D.D. had been diagnosed and, while the representative could not confirm that A. Davis was
HIV positive, “he indicated very strongly that that was the case” and “they were very likely
checking on all of the siblings.” (Dkt. 98-8 at 28:21–25; 29:1–7) The Court notes that this
testimony is hearsay that would appear to be entirely inadmissible to prove that A. Davis, in fact,
has HIV. There is no other record evidence that A. Davis has HIV. Thus, upon this level of
uncertainty and with the absence of admittedly crucial information, causation of J.D.D.’s illness
remains unclear. Nevertheless, for purposes of this Order, the Court credits Plaintiff’s
contention that J.D.D. contracted the disease at birth from A. Davis.
5 Dr. Rodriguez testified that there is a window of time “where HIV tests can be negative despite
the person being infected.” (Dkt. 87-4 at 47:18–23)

11

App.025

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 12 of 54 PageID 4924

received a medical write-up, although the record contains no such document.

Further,

Weaver does not believe that she had the authority to request a medical screening
without a court order. (Id. at 14:14–22) She indicates that she never encountered a
child who needed to be medically screened because “[t]he child was—or any child—is
screened thoroughly, medically, before they come to us.” (Id. at 21:4–6) She also
states that if a child’s records indicated that he did not have a medical screening, she
would have made her supervisor aware and the supervisor could have ordered one.
(Id. at 45:22–24) While Riley also does not recall J.D.D. specifically, like Weaver, she
was adamant at her deposition that she would not have accepted a child’s case into
foster care if a basic medical screening was not done.

(Dkt. 87-3 at 16:15–18; 18:12–

21) She stated that initial health care assessments are “always done” while a child is in
shelter prior to being placed with the foster care unit, and that she has “never known a
case the whole time that [she] was with the department that that was not done, because
there are so many checks and balances there.”

(Id. at 36:23–25; 37:1–4, 16–19)

However, such a screening would not have necessarily included HIV testing, as Riley
insisted “[t]hat’s determined by the doctor.” (Id. at 42:8–10)
As evidence that no medical assessment or screening was performed, Plaintiff
has proffered a Suncoast Child Protection Team Referral Form that was found in DCF’s
files.

(Dkt. 87-1 at 59) The form is addressed to a “Parent or Guardian,” and states, in

pertinent part:
“Your child has been referred to the Suncoast Child Protection Team
(SCPT) for a medical examination due to a report of abuse or neglect.
We understand that this may be a very upsetting time for you and for your
child. Therefore, we want to help you to understand what will happen
when you come to our office. . . . Please consider the following

12

App.026

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 13 of 54 PageID 4925

information regarding your child’s medical exam at SCPT:

(Id.)

x

The exam is required by law.

x

There is no charge to you for the exam.

x

A medical doctor or an advanced registered nurse
practitioner will conduct the exam.
...

x

No shots are given and no bloodwork is done; cultures are
taken, only if medically needed. . . .”

The letter is signed by Patsy W. Buker, and has a fillable line for

appointment date and time, which have both been left blank.

(Id.) Plaintiff contends

that the blank document further proves that J.D.D. never received such an examination.
(Dkt. 87 at 4)

Again, crediting Plaintiff’s version of the facts for purposes of this Order,

the Court assumes this to be true.
3.

Medicaid Outreach and Information

J.D.D. was and is currently eligible for Medicaid through the age of 21, although,
since his adoption, he also receives insurance through S. Davis’s private health
insurance company.

(Dkt. 115 at 8; Dkt. 121 at 6) P. Davis testified at her deposition

that they were “dropped” by the State of Florida and they have heard nothing from any
state agency, including DCF, regarding J.D.D.’s entitlement to future medical care.
(Dkt. 115-3 at 51-52) S. Davis provided an affidavit in which he too states that at no
time before or after serving a notice of claim on Carroll on February 27, 2015, has any
person from DCF informed him or provided him with any materials informing him of the
availability of child healthcare services under the EPSDT program, the benefits of
preventative care, or how to obtain such services.

(Dkt. 115-4) He also avers that he

has never received such information in written form by mail or otherwise.

13

(Id.)

App.027

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 14 of 54 PageID 4926

However, in S. Davis’s deposition, he testified that he does receive mailed notices
regarding J.D.D.’s Medicaid a “[c]ouple times a year” which say “to see your doctor and
do your normal health stuff.” (Dkt. 98-8 at 47:1–17) Because the Court resolves the
dispute over the adequacy of notice of medical rights on other grounds, it need not
resolve this factual dispute, which requires a credibility assessment.6
Further, Defendants admit that at no time after the February 27, 2015 Notice of
Claim of J.D.D.’s injuries has Defendant Carroll “informed J.D.D. or his adult caretakers
of the availability of child healthcare services under the EPSDT program, the benefits of
preventative care, so he would know what or where services are available under the
Medical Assistance program, or how to obtain them.”

(Dkt. 115-2 at 2, 7) It is

Defendants’ position that neither DCF nor Carroll is required by state or federal law to
provide such information.

(Id. at 7) Defendants also admit that at no time has Carroll

“proposed administrative rule-making concerning the provision of information on the
availability of HIV or AIDS testing for infants or children who are or were previously held
in DCF custody and continue to be under the age of twenty-one (21).” (Id. at 2, 7)
Again, Carroll’s position is that his agency is not responsible for doing so.
C.

(Id. at 7)

Plaintiff’s Objections to Defendants’ Summary Judgment Evidence

Plaintiff has raised, on several occasions, objections to various portions of
summary judgment evidence offered by Defendant.

Plaintiff’s argues that such

evidence consists of hearsay and has not been authenticated.

(Dkt. 99 at 2; Dkt. 110 at

1–2) Federal Rule of Civil Procedure 56 provides that “[a] party may object that the
material cited to support or dispute a fact cannot be presented in a form that would be
6 “[C]redibility determinations and the weighing of evidence ‘are jury functions, not those of a
judge.’” Feliciano v. City of Miami Beach, 707 F.3d 1244, 1252 (11th Cir. 2013) (quoting
Anderson, 477 U.S. at 255).

14

App.028

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 15 of 54 PageID 4927

admissible in evidence.” Fed. R. Civ. P. 56(c)(2).

The Advisory Committee Notes to

Rule 56 state that the proponent of the evidence has the burden to show either that the
material is admissible as presented or to explain the admissible form that is anticipated.
Plaintiff’s preliminary objections concern four exhibits offered by Defendants in
their response to Plaintiff’s Motion for Partial Summary Judgment as to Liability of
Defendants Weaver & Riley.
Summary Judgment.

Defendants also rely on these exhibits in their Motion for

(Dkt. 99 at 2)

The challenged exhibits are Docket Nos. 98-1,

98-5, 98-10, and 98-11.
x

Docket No. 98-1 contains copies of J.D.D.’s Infant Discharge Summary
from Bayfront Medical Center and an “I’m a Boy” hospital sticker containing
his basic birth information.

(Dkt. 98-1) The Infant Discharge Summary

bears a Bayfront Medical Center logo and appears to have been signed by
a nurse as well as a parent or authorized agent, but both signatures are
illegibly faded on the copy submitted.
x

(Id.)

Docket No. 98-5 contains a “Healthy Start Child Health Passport,” a
medical log, and three other documents containing some information about
J.D.D.’s early medical appointments and treatment.

(Dkt. 98-5)

Specifically, one of these documents lists an appointment date as early as
April 24, 2000 at North Pinellas Children’s Medical Center and June 16,
2000 at Suncoast Krug Health Center Pediatrics, although these
documents do not contain a signature or a date of creation.

(98-5 at 5) It

also appears from this document that J.D.D. was given his first
vaccinations at the June 16, 2000 appointment.

15

(Id. at 4–5) The last

App.029

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 16 of 54 PageID 4928

page of this exhibit contains a document with the signatures of J.D.D.’s
foster parents, but it is unclear that this page is in any way related to the
others. (Id. at 7)
x

Docket No. 98-10 contains 81 pages of J.D.D.’s various medical records
from 2001 through 2014.

x

(Dkt. 98-10)

Docket No. 98-11 contains three documents (1) a Client/Vouchering
Information Form that appears to bear Shorter’s signature, (2) an
Agreement to Provide Substitute Care for Dependent Children form that
appears to bear Weaver’s and Clifford’s signatures, and (3) what appears
to be a copy of J.D.D.’s Medicaid Card stating that his MediPass Provider
is Krug Family Health Care.

(Dkt. 98-11)

On March 8, 2018, six days after the dispositive motion deadline and six days
after Plaintiff first raised his objections, Defendants filed a Notice of Filing Affidavit, (Dkt.
108), which attached the sworn affidavit of Deanne Fields, Assistant Suncoast Region
Counsel for DCF.

Ms. Fields’ affidavit averred that Docket Nos. 98-1 and 98-5 are true

copies of documents contained in the regular business records of DCF.

(Dkt. 108-1)

That same day, Defendants also filed a Notice of Filing Documents in Support of Motion
for Summary Judgment. (Dkt. 109) The attached documents consist of 63 pages of
DCF and state court records, some of which were already attached to Plaintiff’s Partial
Motion for Summary Judgment, and some of which were not. (Dkt. 109-1)
The same day that Defendants filed the affidavit of Ms. Fields and their additional
summary judgment evidence, Plaintiff filed his response to Defendants’ Motion for
Summary Judgment.

(Dkt. 110)

Therein, Plaintiff again objects to Defendant’s

16

App.030

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 17 of 54 PageID 4929

reliance on Docket Nos. 98-1, 98-5, 98-10, and 98-11, portions of which Defendants
adopted into their Motion for Summary Judgment, because these documents are
unauthenticated.

(Id. at 1–2) Specifically, Plaintiff notes that Docket No. 98-5, the

“Healthy Start Passport,” does not indicate when it was created or by whom, and merely
states that J.D.D. was “once set for an appointment scheduled for that date.” (Dkt. 110
n.1) Plaintiff further objects to Defendants later submitting documents not incorporated
into their Motion, pertaining to the two notices, Docket Nos. 108 and 109, filed by
Defendants earlier that day.

(Id.)

On March 23, 2018, Defendants addressed Plaintiff’s objections in their Reply in
Support of Their Motion for Final Summary Judgment.

(Dkt. 116)

Therein,

Defendants argue that Plaintiff’s authentication argument relies on a previous version of
Federal Rule of Civil Procedure 56.

In its current form, Rule 56 no longer requires the

authentication of documents at the summary judgment stage, and Defendants cite a list
of post-amendment opinions and rulings within the Eleventh Circuit that have recognized
this change.

(Id. at 1–2) Specifically, Defendants argue that under the current rule,

documents may be considered if it is apparent that they will be admissible at trial.
Fed. R. Civ. P. 56.

See

Defendants note that 98-1 and 98-5 have been authenticated by the

affidavit of Ms. Fields, and that 98-10 and 98-11 “are records of regularly conducted
activities which Defendants anticipate will be authenticated by the appropriate records
custodians or other qualified witnesses.” (Dkt. 116 at 3)

Specifically, as to Docket No.

98-10, Dr. Gonzalez has testified that his signature is contained on several of these
records, and he recognized the 15 Month EPSDT form, (Dkt. 98-10 at 10), as “the form
we used to use for EPSDTs at that time.” (Dkt. 98-6 at 29:4–21) Thus, Defendants

17

App.031

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 18 of 54 PageID 4930

contend that Plaintiff’s objection is insufficient, as he argues only that the documents are
not currently authenticated, rather than that they cannot ever be authenticated.
On March 23, 2018, the same day that Defendants filed their reply.

Plaintiff filed

an Objection to Defendants’ Untimely Filing of Unauthenticated Papers and Inadmissible
Hearsay Incapable of Being Made Admissible, (Dkt. 117), objecting to 108-1, the affidavit
of Ms. Fields, and 109-1, the 63 pages of DCF and Court records.

Plaintiff contends

that both the affidavit of Ms. Fields and the 63 pages of additional evidence supporting
Defendants Motion for Summary Judgment are untimely, as they were filed six (6) days
after the dispositive motion deadline.

Plaintiff also objects to the papers attached to Ms.

Fields’ affidavit, specifically the documents from Docket No. 98-5 containing the “Healthy
Start Child Health Passport” and other papers that reference an April 24, 2000
appointment as being unauthenticated hearsay incapable of being presented in an
admissible form at trial and “lacking indicia of trustworthiness as Defendants have
admitted they do not know the date on which the papers attached to their affidavit were
created.” (Dkt. 117 at 2) Plaintiff further argues that Ms. Fields is not a custodian or
qualified witness who can explain the record-keeping procedure utilized by DCF;
therefore, her affidavit does not suffice to authenticate Docket Nos. 98-1 and 98-5.

(Id.)

Defendant responds to Plaintiff’s objection, arguing that the notices are not
untimely, as Defendants were not on notice of Plaintiff’s hearsay and authentication
challenges until Plaintiff first raised them in his reply, filed on the dispositive motion
deadline.

(Dkt. 119 at 2–3)

Defendant further argues that all of the objected to

documents had been circulating for months in discovery with no objection by Plaintiff.
(Id.) Defendant also proffers that all of the documents can be reduced to admissible

18

App.032

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 19 of 54 PageID 4931

evidence at trial, as they qualify as business records under the business records hearsay
exception set forth in Rule 803(6) of the Federal Rules of Evidence as
“contemporaneous records or reports of events and conditions made in the regular
course of business activity.”

(Id. at 3)

This rule allows business records to be

introduced through a custodian or qualified witness. See Fed. R. Evid. 803(6)(D).
Upon careful review of the Parties’ arguments, the objected-to documents, and
being otherwise fully advised, the Court SUSTAINS Plaintiff’s objection to Docket No.
98-5, J.D.D.’s “Healthy Start Child Health Passport” and other papers therein, as these
documents do not contain a date of creation or signature, and Defendants have admitted
that they do not know when they were created or who created them.

However,

Plaintiff’s other objections are OVERRULED, as it appears the other documents
proffered by Defendants are business records that are capable of authentication at trial.
II.

STANDARD OF REVIEW
Summary judgment is appropriate when the movant can show that there is no

genuine issue of material fact and that the movant is entitled to judgment as a matter of
law. Fennell v. Gilstrap, 559 F.3d 1212, 1216 (11th Cir. 2009) (citing Welding Servs.,
Inc. v. Forman, 509 F.3d 1351, 1356 (11th Cir. 2007)). Which facts are material depends
on the substantive law applicable to the case. Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986). The moving party bears the burden of showing that no genuine issue of
material fact exists. Clark v. Coats & Clark, Inc., 929 F.2d 604, 608 (11th Cir. 1991).
Evidence is reviewed in the light most favorable to the non-moving party. Fennell,
559 F.3d at 1216 (citing Welding Servs., Inc., 509 F.3d at 1356). A moving party
discharges its burden on a motion for summary judgment by showing or pointing out to

19

App.033

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 20 of 54 PageID 4932

the Court that there is an absence of evidence to support the non-moving party's case.
Denney v. City of Albany, 247 F.3d 1172, 1181 (11th Cir. 2001) (citation omitted).
When a moving party has discharged its burden, the non-moving party must then
designate specific facts (by its own affidavits, depositions, answers to interrogatories, or
admissions on file) that demonstrate there is a genuine issue for trial. Porter v. Ray, 461
F.3d 1315, 1320-1321 (11th Cir. 2006) (citation omitted). The party opposing a motion
for summary judgment must rely on more than conclusory statements or allegations
unsupported by facts. Evers v. Gen. Motors Corp., 770 F.2d 984, 986 (11th Cir. 1985)
(“conclusory allegations without specific supporting facts have no probative value.”). “If
a party fails to properly support an assertion of fact or fails to properly address another
party's assertion of fact . . . the court may grant summary judgment if the motion and
supporting materials . . . show that the movant is entitled to it.” Fed. R. Civ. P. 56(e).
III.

DISCUSSION
A.

Counts I-III against Weaver and Riley

Plaintiff asserts three counts against Defendants Weaver and Riley in their official
and individual capacities.

Count I asserts a claim against Weaver and Riley in their

official and individual capacities for violating J.D.D.’s federal statutory rights to Early
Periodic Screening, Diagnosis, and Treatment (“EPSDT”) and prompt medical
assistance under 42 U.S.C. § 1396a(a)(8) and (10).

Count II asserts a claim against

Weaver and Riley in their official and individual capacities for violating J.D.D.’s federal
statutory right to “outreach services” under 42 U.S.C. § 1396a(a)(43).

Count III asserts

a claim against Weaver and Riley in their official and individual capacities for violating

20

App.034

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 21 of 54 PageID 4933

J.D.D.’s constitutional right to due process under the Fourteenth Amendment.

(Dkt. 87

at 2)
1.

Official Capacity

Defendants argue in their Motion for Summary Judgment that Plaintiff’s suit
against Weaver and Riley in their official capacities is barred by the Eleventh
Amendment.

(Dkt. 104 at 18–19)

The Eleventh Amendment bars lawsuits for

monetary damages against state actors in their official capacities.
Assocs., P.C. v. Pryor, 180 F.3d 1326, 1336 (11th Cir.1999).

Summit Med.

In Plaintiff’s response to

Defendant’s Motion for Summary Judgment, Plaintiff clarifies that he is not seeking
injunctive relief from Weaver and Riley in their official capacities.

(Dkt. 110 at 14 n.11)

He contends that he sues Weaver and Riley “in their individual capacities for their
actions taken as officials,” and that his “claims for damages against Weaver [and] Riley
in their individual capacities are incapable of violating the [Eleventh] Amendment.” (Id.
(emphasis in original))

Plaintiff does not address whether he is attempting to sue

Weaver and Riley in their official capacities for monetary damages.

Because such a

suit would be barred by the Eleventh Amendment, to the extent that Plaintiff asserts
claims against Weaver and Riley in their official capacities for monetary damages,
summary judgment is granted in favor of Defendants.
2.

Individual Capacity

Defendants Weaver and Riley argue that they are protected by qualified immunity
from the claims asserted against them in their individual capacities. (Dkt. 104 at 6–18)
Qualified immunity provides that “[p]ublic officials are immune from suit under 42 U.S.C.
§ 1983 unless they have violated a statutory or constitutional right that was clearly

21

App.035

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 22 of 54 PageID 4934

established at the time of the challenged conduct.” City & Cty. of San Francisco, Calif.
v. Sheehan, 135 S. Ct. 1765, 1774 (2015) (quoting Plumhoff v. Rickard, 134 S. Ct. 2012,
2016 (2014)). “An officer cannot be said to have violated a clearly established right
unless the right's contours were sufficiently definite that any reasonable official in [his]
shoes would have understood that he was violating it . . . meaning that existing
precedent . . . placed the statutory or constitutional question beyond debate.”
(citations and quotation marks omitted) (alteration in original).

Id.

“This exacting standard

gives government officials breathing room to make reasonable but mistaken judgments
by protect[ing] all but the plainly incompetent or those who knowingly violate the law.”
Id. (citations and quotation marks omitted) (alteration in original).
“To receive qualified immunity, a government official must first establish that he
was acting within his discretionary authority.”
(11th Cir. 2007).

McClish v. Nugent, 483 F.3d 1231, 1237

“Once an officer raises the defense of qualified immunity, the plaintiff

bears the burden to show that the officer is not entitled to it.” Keating v. City of Miami,
598 F.3d 753, 762 (11th Cir. 2010).

The court must first determine “whether [the]

plaintiff's allegations, if true, establish a constitutional violation.” Id. (quoting Hope v.
Pelzer, 536 U.S. 730, 736 (2002)).

The next inquiry is “whether the constitutional

violation was clearly established.” Id. (citing Saucier v. Katz, 533 U.S. 194, 201 (2001)).
“If the plaintiff satisfies both parts of the test, then the officer is not entitled to qualified
immunity.” Id.
Plaintiff concedes that Weaver’s and Riley’s actions occurred within the scope of
their discretionary authority as foster care caseworkers.

22

(Dkts. 87 at 13, 110 at 7)

App.036

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 23 of 54 PageID 4935

Thus, the burden shifts to Plaintiff to establish that J.D.D.’s constitutional rights were
violated and that the violations he alleges were based upon clearly established law.
a.

Constitutional Violation - Deliberate Indifference

Plaintiff contends that the evidence adduced establishes that when they were
deliberately indifferent to his need for HIV screening, Weaver and Riley violated J.D.D.’s
clearly established statutory and constitutional rights, including his federal statutory right
to EPSDT, his federal statutory right to outreach services, and his constitutional right to
physical safety while in foster care.

(Dkt. 87 at 14)

Specifically, Plaintiff argues that

“no reasonable child caseworker confronted with such obvious multiple HIV risk
factors—including lack of prenatal care, drug exposure, removal of four (4) previous
newborns for drug exposure, domestic violence, and ambiguous paternity (among other
factors)—would have refused to refer the infant to medical authorities for communicable
disease testing . . . .”7 (Id.)

Resolving all factual disputes in favor of Plaintiff for

purposes of determining whether Weaver and Riley violated J.D.D.’s constitutional and
statutory rights by not referring him to get testing for HIV based on these risk factors, the
Court finds that, at best, this appears to be a case of “mere negligence” as that term is
understood in this context.

Thus, the Court finds that no reasonable jury could

determine that Weaver and Riley were deliberately indifferent to J.D.D.’s need for an HIV
screening.

7 It is unclear where in the record Plaintiff determines that J.D.D.’s paternity was ambiguous, as
Plaintiff does not cite to any evidence that supports this contention. On the contrary, all
documents submitted appear to reference an Ernest “Keith” Majors as J.D.D.’s biological father,
dating as early as the Detention Petition Action Summary dated April 17, 2000. (Dkt. 87-1 at
55) However, even assuming that J.D.D.’s paternity was ambiguous and Weaver and Riley
were aware of this, the Court reaches the same conclusion.

23

App.037

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 24 of 54 PageID 4936

“It is well established that ‘deliberate indifference to serious medical needs of
prisoners constitutes the “unnecessary and wanton infliction of pain” . . . proscribed by
the Eighth Amendment.’” Brown v. Johnson, 387 F.3d 1344, 1351 (11th Cir. 2004)
(quoting Estelle v. Gamble, 429 U.S. 97, 104 (1976)).

The standard for claims of

medical deliberate indifference brought by prisoners under the Eighth Amendment also
applies to non-prisoner claims brought under the Fourteenth Amendment.
Gagnon, 626 F.3d 557, 566 (11th Cir. 2010).

Youmans v.

Like prisoners, “foster children have a

constitutional right to be free from unnecessary pain and a fundamental right to physical
safety.” Ray v. Foltz, 370 F.3d 1079, 1082 (11th Cir.2004) (citing Taylor v. Ledbetter, 818
F.2d 791, 794–95 (11th Cir.1987) (en banc)).

A serious medical need is “one that has

been diagnosed by a physician as mandating treatment or one that is so obvious that
even a lay person would easily recognize the necessity for a doctor's attention.”
v. West, 320 F.3d 1235, 1243 (11th Cir. 2003).

Farrow

“[O]nly where it is alleged and the proof

shows that the state officials were deliberately indifferent to the welfare of the child will
liability be imposed.” Maldonado v. Snead, 168 F. App’x 373, 379 (11th Cir. 2006)
(quoting Taylor, 818 F.2d at 797) (emphasis in original).
“Deliberate indifference is not the same thing as negligence or carelessness.

On

the contrary, the Supreme Court has made clear that a state official acts with deliberate
indifference only when he disregards a risk of harm of which he is actually aware.”
Maldonado, 168 F. App’x at 379 (quoting Ray, 370 F.3d at 1083) (emphasis in original).
Deliberate indifference requires: “(1) subjective knowledge of a risk of serious harm; (2)
disregard of that risk; (3) by conduct that is more than mere negligence.” 8 Lane v.
8 The Court recognizes that Eleventh Circuit case law is seemingly contradictory regarding
whether deliberate indifference requires conduct that is “more than gross negligence” or “more

24

App.038

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 25 of 54 PageID 4937

Philbin, 835 F.3d 1302, 1308 (11th Cir. 2016). To establish the requisite subjective
knowledge, “the official must both be aware of facts from which the inference could be
drawn that a substantial risk of serious harm exists, and he must also draw the
inference.”

Id. (quoting Farmer v. Brennan, 511 U.S. 825, 837 (1994)).

The Eleventh

Circuit has held “that ‘deliberate indifference is not as easily inferred or shown from a
failure to act’ and that a child abused in foster care is ‘faced with the difficult problem of
showing actual knowledge of abuse or that agency personnel deliberately failed to learn
what was occurring in the foster home.’” H.A.L. ex rel. Lewis v. Foltz, 551 F.3d 1227,
1232 (11th Cir. 2008) (quoting Taylor, 818 F.2d at 796).
Court in Farmer explained:

However, as the Supreme

“Whether a prison official had the requisite knowledge of a

substantial risk is a question of fact subject to demonstration in the usual ways, including
inference from circumstantial evidence . . . and a factfinder may conclude that a prison
official knew of a substantial risk from the very fact that the risk was obvious.” 511 U.S.
at 842.

than mere negligence.” Compare Goebert v. Lee County, 510 F.3d 1312, 1327 (11th Cir.
2007), with Bingham v. Thomas, 654 F.3d 1171, 1176 (11th Cir. 2011). In Townsend, the
Eleventh Circuit expressly held that a claim of deliberate indifference requires proof of more than
gross negligence. Townsend v. Jefferson Cty., 601 F.3d 1152, 1158 (11th Cir. 2010).
However, in the more recent Melton case, the Eleventh Circuit disagreed with its prior decision in
Townsend, finding “more than mere negligence” to be the appropriate standard. Melton v.
Abston, 841 F.3d 1207, 1223 n.2 (11th Cir. 2016). Further, several unpublished, Eleventh
Circuit cases post-Melton have continued to use the “gross negligence” standard. See, e.g.,
Gonzalez v. Archer, 725 F. App’x 739, 742 (11th Cir. 2018); White v. Cochran, No. 16-17490-G,
2017 WL 6492004, at *3 (11th Cir. Nov. 27, 2017); Dunn v. Warden, Ware State Prison, No.
16-16603-E, 2017 WL 5047902, at *3 (11th Cir. Sept. 25, 2017); Sifford v. Ford, 701 F. App’x
794, 795 (11th Cir. 2017); Woodyard v. Alabama Dep't of Corr., 700 F. App’x 927, 932 (11th Cir.
2017); Howell v. Unnamed Defendant, 672 F. App’x 953, 955 (11th Cir. 2016); Mitchell v.
McKeithen, 672 F. App’x 900, 903 (11th Cir. 2016); see also Harris v. Prison Health Servs., 706
Fed. App’x. 945, 951 (11th Cir. 2017) (noting lack of clarity between “more than mere
negligence” and “more than gross negligence” but declining to decide the issue). The Court
finds that Plaintiff’s claim fails under either standard. Here, Plaintiff has not established that
Weaver and Riley’s failure to have J.D.D. tested was more than mere negligence. It follows a
fortiori, that their inaction was not more than gross negligence.

25

App.039

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 26 of 54 PageID 4938

The Court assumes, for purposes of this Order, that J.D.D. was never tested for
HIV while in DCF’s custody, as Defendants have admitted that neither Weaver nor Riley
ordered J.D.D. to be tested while he was in their care, and they have admitted that they
have no personal knowledge of any HIV test having been administered to J.D.D. while
he was in their custody.9 (Dkt. 87-1 at 2–3; Dkt. 110-2 at 4) Thus, Plaintiff argues that
Weaver and Riley were deliberately indifferent to J.D.D.’s serious medical need for an
HIV screening because they had knowledge of certain pieces of information that he
claims so obviously indicated J.D.D.’s substantial risk for having contracted HIV that any
reasonable person would have made the inference that he needed to be tested and
would have had him tested, yet they failed to do so.

(Dkt. 87 at 22)

This assertion simply proves the point that that there is no evidence that Weaver
or Riley were actually aware or even suspected that J.D.D. had HIV.

Nor is there

evidence that Defendants were actually aware or suspected that A. Davis, J.D.D.’s birth
mother, had HIV.

The information that Plaintiff alleges Weaver and Riley did have

knowledge of includes A. Davis’s failure to seek prenatal care, use of cocaine, loss of
custody of four previous newborns for cocaine exposure, domestic violence, and J.D.D.’s
ambiguous paternity.

(Id. at 14)

Plaintiff also points to a 1993 and 1995 Abuse Report

regarding one of A. Davis’s prior removed children, which stated that A. Davis stated that
she had completed a drug program for heroin.

(Dkt. 110-5 at 4) In the 1995 Abuse

Report, under a section labeled Investigative Decision Summary, the Abuse Report
9 Weaver testified at her deposition that she would not have requested an HIV test because she
did not believe she had the ability to authorize a medical screening or order an HIV test for a
child without a court order. (Dkt. 87-2 at 46:15–20) The Court finds that any mistaken belief
Weaver may have had regarding the extent of her authority under the law was just that – a
mistake. This does not amount to deliberate indifference. Further, since the evidence does
not establish that Weaver had subjective knowledge of J.D.D.’s need to be tested for HIV, any
mistake regarding whether she was authorized to do so is irrelevant.

26

App.040

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 27 of 54 PageID 4939

includes the information that A. Davis had been previously arrested in 1983 for
prostitution.

(Dkt. 110-6 at 3)

Based on their knowledge of all of this information,

Plaintiff argues that Weaver’s and Riley’s knowledge of J.D.D.’s substantial risk of
having contracted HIV can be inferred.

(Id. at 22)

Defendants admit that Riley knew of certain circumstances surrounding J.D.D.’s
birth, including that A. Davis had limited or no prenatal care, that four of her previously
born children were removed from her custody due to illicit drug exposure, and that J.D.D.
had been exposed to cocaine at birth.

(Dkt. 87-1 at 2–3) Further, while Defendants do

not admit that Weaver had knowledge of these circumstances, (Id. at 2), a reasonable
juror could conclude she did.

The information was repeated numerous times

throughout different documents in J.D.D.’s DCF file, including on the Detention Petition,
the PDS, the Order of Adjudication of Dependency, the Case Staffing document, and the
Shelter Audit Form.

(Id. at 14–17, 32–34, 49–56) Though not signed by Weaver, both

the Case Staffing document and the Shelter Audit Form contain her name.

(Id. at 53,

56) Further, the Judicial Review Social Study Report/Case Plan Update, signed by
both Weaver and Riley on August 25, 2000, contains a summary of J.D.D.’s reason for
placement in foster care, including that A. Davis tested positive for cocaine at his birth,
had no prenatal care, and that the case was closed with verified findings of “drug
dependent newborn.”

(Id. at 36) Despite Weaver’s testimony that she would not have

known the totality of the information in a child’s file, (Dkt. 87-2 at 42:3–12), taking the
evidence in the light most favorable to Plaintiff, the Court assumes that both Weaver and
Riley were aware of these circumstances.

Further, although it was not included in any

document summarizing J.D.D.’s case or on any document containing Weaver and

27

App.041

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 28 of 54 PageID 4940

Riley’s signature, for purposes of this Order, the Court assumes that both Weaver and
Riley had knowledge of A. Davis’s prior treatment for heroin and 1983 arrest for
prostitution, both of which were embedded within abuse reports from previous children
removed from her care.

(Dkts. 110-5 at 4, 110-6 at 3) As noted above, Plaintiff has

not pointed to any record evidence of “ambiguous paternity” in J.D.D.’s file such that the
Court could find that Weaver and Riley knew this information.

See supra n.6.

However, even assuming their knowledge of these factual circumstances, the
evidence does not support a finding that Weaver and Riley actually, subjectively drew
from these circumstances the inference of the risk that J.D.D. had contracted HIV.
First, the limited facts known to Weaver and Riley simply do not demonstrate an obvious
risk to J.D.D. of having contracted HIV, such that a juror could say that Weaver and Riley
must have known of it.

At best, the “risk factors” known to Weaver and Riley indicate

the mere possibility that J.D.D.’s birth mother, A. Davis, may have been exposed to
HIV/AIDS. There was no way for Weaver and Riley to have known, in fact, that A.
Davis had HIV because there is no evidence proffered from J.D.D.’s file of such a fact.
Rather, Weaver and Riley would first have to have drawn the inference that A. Davis
might have had HIV based on their knowledge of snippets of information regarding her
lifestyle from J.D.D.’s file. Then, they would have to have inferred that based on the
mere possibility that A. Davis might have had HIV, J.D.D. might also have contracted
HIV from A. Davis perinatally or during birth.

The Court notes with interest that

Plaintiff’s medical expert Dr. Tureen testified that, in actuality, the risk of transmission
from an untreated mother who is HIV positive to a baby is only roughly twenty to
twenty-five percent. (Dkt. 98-13 at 67:6–9) Plainly, based on the limited information

28

App.042

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 29 of 54 PageID 4941

known to Weaver and Riley about A. Davis’s lifestyle, the risk to J.D.D. of being HIV
positive was not obvious enough to permit a jury to find that Weaver and Riley were
deliberately indifferent by failing to have him tested for the illness.10
Second, there is no evidence that J.D.D. was exhibiting any physical signs or
symptoms of having contracted HIV, nor would there be, as Dr. Rodriguez testified that
children born with HIV are typically asymptomatic.

(Id. at 12:12–24) The evidence

indicates that J.D.D. was receiving medical treatment for ailments that are common in
infants, including thrush, asthma, and “[t]he usual colds, runny noses, sniffles, that type
of thing.” (Dkt. 104-2 at 21:6–20) However, Dr. Gonzalez testified that thrush is “[v]ery
common” in children under five, as it can get into an infant’s mouth through
breastfeeding and bottle-feeding.

(Dkt 98-6 at 25:15–24) Dr. Tureen also testified that

“a one-year-old who gets thrush against the backdrop of . . . he’s had a couple of ear
infections, he’s been on some antibiotics, . . . that wouldn’t make me think that he had
HIV infection.

It’s very different.

A one-year-old with thrush is very different from a

14-year-old with thrush.” (Dkt. 98-10 at 89:16–23) Dr. Tureen also testified that after
reviewing J.D.D.’s available medical records, none of J.D.D.’s other documented
childhood health issues, including a blood test with an abnormal platelet count, reactive
airway disease, eczema, and an episode of toxic synovitis would be cause to order an
HIV test.

(Id. at 88:21–24; 90:21–25; 91:1–20)

Finally, Plaintiff’s arguments about the obviousness of J.D.D.’s risk factors are
undercut by the fact that at the time of his birth, medical personnel were aware of many
of the same pieces of information regarding J.D.D.’s background and birth
10 Plaintiff offered the unsupported opinions of Dr. Alex Redcay, Plaintiff’s expert in social work,
to bolster the claimed obviousness of J.D.D.’s need for HIV screening. However, the Court has
excluded Dr. Redcay, (Dkt. 153) and, therefore, does not address her opinions in this Order.

29

App.043

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 30 of 54 PageID 4942

circumstances, yet they did not draw the inference of a risk of HIV either.

Specifically,

hospital personnel were aware of the fact that that J.D.D. was exposed to cocaine at
birth through his mother, that he had low oxygen and low birthweight, that A. Davis had
little to no prenatal care, and that prior children had been removed from her custody.
(Dkt. 87-1 at 11; Dkt. 104-5 at 11) This is evidenced by the April 10, 2000 Abuse
Report sent from Bayfront Medical Center to the PCSO, which contained all of this
information under the allegation narrative section.

(Dkt. 104-5 at 11)

It is also

undisputed that J.D.D. remained in the hospital for seven days following his birth.
(Dkts. 87 at 2; 98 at 3)

Assuming, as Plaintiff argues, that no HIV test was ever

performed, the fact that these medical authorities also did not draw the inference of a risk
of HIV during the seven days after J.D.D.’s birth and test or seek consent to have him
tested undermines the claimed obviousness of the risk.

Further, P. Davis testified that

Dr. Gonzalez, J.D.D.’s primary care physician, was also aware of at least some of these
circumstances, including that J.D.D. was born with cocaine exposure and that his mother
“was a crack addict” and had “no prenatal care.” (Dkt. 115-3 at 25:5–22) Despite this
knowledge, Dr. Gonzalez also did not draw the inference of a risk to J.D.D. of HIV.
Thus, the Court finds that no reasonable jury could find that the risk that J.D.D. was HIV
positive was so obvious that Weaver and Riley’s subjective knowledge can be inferred.
The Eleventh Circuit’s decision in Omar v. Babcock ,177 F. App'x 59, 63 (11th Cir.
2006), is instructive on this point.11

In Omar, the court confirmed a grant of summary

judgment because the record evidence was insufficient to establish deliberate
indifference despite expert testimony that the DCF officials missed signs of abuse and
11 The Court notes that “[a]lthough an unpublished opinion is not binding on this court, it is
persuasive authority. See 11th Cir. R. 36-2.” United States v. Futrell, 209 F.3d 1286, 1289
(11th Cir. 2000).

30

App.044

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 31 of 54 PageID 4943

failed to follow several policies and procedures.

Id. at 64.

In so holding, the Court

found that the defendants’ knowledge of certain facts, including the child’s documented
illnesses and declining health, evidence of psychological problems, and a doctor’s
discovery of loop marks on his body, was insufficient to allow a juror to conclude that the
defendants actually drew the inference that the child was being abused by his foster
parents.

Id. at 63–64.

The court also noted that the lack of evidence that “any of the

physicians who treated [the child] suspected these illnesses resulted from abuse” meant
that the defendants would have “no reason to suspect otherwise.”

Id. at 64.

Here, as

in Omar, there is no evidence to indicate that Weaver and Riley knew or even suspected
that J.D.D. had HIV.
Moreover, the record directly refutes the conclusion that J.D.D. was denied early
childhood checkups because the unrebutted evidence adduced by Defendants
sufficiently establishes that, while he may not have been specifically tested for HIV,
J.D.D. was taken for routine medical appointments and received medical treatment
during the three years he was in DCF custody.

Such evidence includes the testimony

of Clifford, J.D.D.’s foster father, who specifically recalls taking J.D.D. to Dr. Gonzalez for
various doctor appointments during the 2000 to 2003 time period. (Dkt. 104-2 at 9:15–
25; 10:1–22) Specifically, Clifford states that during this time period, J.D.D. was treated
by Dr. Gonzalez for thrush, asthma, as well as “[t]he usual colds, runny noses, sniffles,
that type of thing,” and received immunizations “[a]s required by the doctor’s office.”
(Id. at 21:6–20) J.D.D.’s adoptive mother, P. Davis, also testified to taking J.D.D. to the
doctor regularly with her parents, J.D.D.’s foster parents, prior to adopting him.

31

(Dkt.

App.045

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 32 of 54 PageID 4944

115-3 at 19:1–7) Thus, this is not a case in which the child was languishing without any
medical care whatsoever while in DCF custody.
Accordingly, considering the admissible evidence and drawing all inferences in
the light most favorable to Plaintiff, the Court finds that the evidence is insufficient to
establish that Weaver and Riley were deliberately indifferent to J.D.D.’s need to be
screened for HIV.
b.

Clearly Established Law

Even if the Court were to find that Weaver and Riley’s inaction amounted to a
constitutional violation, Plaintiff still fails to overcome the qualified immunity defense
because the Court also finds that the law was not so clearly established that it put Weaver
and Riley on notice that their failure to have J.D.D. screened for HIV was a violation of his
constitutional rights.
“A right is clearly established if a reasonable official would understand that his
conduct violates that right.” Melton v. Abston, 841 F.3d 1207, 1221 (11th Cir. 2016).
“The touchstone of the ‘clearly established’ inquiry is whether the official had ‘fair warning’
and notice that his conduct violated the constitutional right in question.” Id. (citing Coffin
v. Brandau, 642 F.3d 999, 1013 (11th Cir. 2011) (en banc)). “In order for the law to be
clearly established, ‘case law must ordinarily have been earlier developed in such a
concrete and factually defined context to make it obvious to all reasonable government
actors, in the defendant's place, that what he is doing violates a federal law.’” Id.
(quoting Priester v. City of Riviera Beach, 208 F.3d 919 (11th Cir. 2000)). The Court
looks to the decisions of the Supreme Court, the Eleventh Circuit, and the highest court of
the pertinent state to decide whether a right is clearly established. Id. Further, the

32

App.046

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 33 of 54 PageID 4945

relevant law is that which existed at the time of the challenged conduct in question.
Ashcroft v. al-Kidd, 563 U.S. 731, 735 (2011).
“A narrow exception to the rule requiring particularized case law exists.” Melton,
841 F.3d at 1221. “This exception applies in situations where the official's conduct ‘so
obviously violates the constitution that prior case law is unnecessary.’” Id. (quoting
Gilmore v. Hodges, 738 F.3d 266, 279 (11th Cir. 2013)). “A broad statement of legal
principle announced in case law may be sufficient if it establishes the law with obvious
clarity to the point that every objectively reasonable government official facing the
circumstances would know that the official's conduct did violate federal law when the
official acted.” Id. (citing Vinyard v. Wilson, 311 F.3d 1340, 1351 (11th Cir. 2002))
(quotation marks omitted). The obvious-clarity exception also applies where conduct is
so egregious that “case law is not needed to establish that the conduct cannot be lawful.”
Id.
Despite this exception, the Supreme Court has warned against allowing plaintiffs
to convert the rule of qualified immunity into “a rule of virtually unqualified liability simply
by alleging violation of extremely abstract rights.” Youmans, 626 F.3d at 563. The
Supreme Court recently reiterated the longstanding principle that “clearly established
law” for purposes of qualified immunity should not be defined at a high level of generality.
White v. Pauly, 137 S. Ct. 548, 552 (2017). In other words, “the clearly established law
must be ‘particularized’ to the facts of the case.” Id. (quoting Anderson v. Creighton,
483 U.S. 635, 640 (1987)). “[I]f a plaintiff relies on a general rule, it must be obvious that
the general rule applies to the specific situation in question.” Youmans, 626 F.3d at 563.
“Whether an asserted federal right was clearly established at a particular time, so that a

33

App.047

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 34 of 54 PageID 4946

public official who allegedly violated the right has no qualified immunity from suit, presents
a question of law, not one of ‘legal facts.’” Elder v. Holloway, 510 U.S. 510, 516 (1994).
i.

No Clearly Established Case Law

Here, there is no case law from the Supreme Court, the Eleventh Circuit, or the
Florida Supreme Court from the relevant time period that is sufficiently factually similar so
as to make it clear to DCF workers that their failure to have J.D.D. screened for HIV based
on knowledge of certain risk factors violated his constitutional or statutory rights. Plaintiff
relies on Taylor v. Ledbetter, a case in which the Eleventh Circuit established the broad
general principles that children in state custody have a constitutional right to be free from
an unreasonable risk of harm while in state custody and that the state’s failure to meet
that obligation can constitute a deprivation of liberty under the Fourteenth Amendment.
818 F.2d at 795. The facts of Taylor involved a child who was removed from her birth
parents and placed with a foster mother. Id. at 792. While in the foster home, the child
was so severely beaten and abused by her foster mother that she was rendered
comatose. Id. Without deciding the issue of qualified immunity, the Eleventh Circuit
held that deliberate indifference to this type of behavior could give rise to liability under §
1983. Id. at 797.
The Eleventh Circuit has subsequently held that the broad principles set forth in
Taylor have clearly established the law in certain cases sufficient to overcome a qualified
immunity defense. Plaintiff cites to H.A.L. ex rel. Lewis v. Foltz, a subsequent case in
which the Eleventh Circuit recognized that Taylor had clearly established a child’s “right to
be free from an unreasonable risk of harm while in state custody.” 551 F.3d at 1231. In
H.A.L., plaintiffs, three minor children, sued under § 1983 when they suffered

34

App.048

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 35 of 54 PageID 4947

child-on-child sexual assault while in foster care. Id. at 1228. Plaintiffs alleged that the
defendant DCF workers placed the plaintiffs in a foster home with two older children
whom defendants knew to be sexually aggressive and knew to frequently be left alone
with the plaintiffs while the foster parents were at work. Id. at 1229–30. Further, after
reports of child-on-child sexual abuse were made, the defendants failed to remove the
plaintiffs from the home or implement any safeguards to protect them from sexual abuse,
subjecting them to a substantial risk of being sexually abused by the older children, which
risk eventually manifested. Id. at 1228, 1230. The Eleventh Circuit held that “[a]lthough
the injury sustained in Taylor was a beating-induced coma and the injury here is sexual
abuse and although other unimportant differences exist, we accept that Taylor clearly
established decisional law that applied, at the pertinent time, with obvious clarity to
Defendants in this case.” Id. at 1231. Specifically, defendants had fair warning that
doing nothing to protect the children from sexual abuse, given their knowledge of
child-on-child abuse in the foster home violated clear federal law. Id. at 1232.
Plaintiff argues that, as in H.A.L., despite factual differences, the general
constitutional rule identified in Taylor “should apply with obvious clarity to the specific
conduct in question, even though the very action in question has not previously been held
unlawful.” (Dkt. 110 at 10 (quoting Hope, 536 U.S. at 741)). Thus, Plaintiff argues,
Weaver and Riley were amply on notice that their conduct violated clearly established
law, despite the novel factual circumstances of this case. (Id.)
However, Taylor, along with the line of cases that have cited to it as clearly
establishing a foster child’s right to be free from physical harm while in the custody of the
state, all contain important differences from the case at hand. Specifically, those cases

35

App.049

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 36 of 54 PageID 4948

all involve a child suffering from abuse in the foster home in which he or she was
involuntarily placed by DCF workers. The Eleventh Circuit has, of course, made clear
that it does not accept the notion that different types of physical abuse are not included
within the clear directive of Taylor. See H.A.L., 551 F.3d at 1231; Ray, 370 F.3d at
1082–83 (extended to severe physical abuse where prior abuse known); Omar ex rel.
Cannon v. Lindsey, 334 F.3d 1246, 1248 (11th Cir. 2003) (severe depraved physical
abuse extension recognized).
The Eleventh Circuit has not, however, extended Taylor to circumstances beyond
physical/sexual abuse—certainly not to failure to infer the presence of an undiagnosed
illness for which a child, if diagnosed, would require treatment.

Here, the alleged

constitutional violation is not deliberate indifference to abuse by anyone of J.D.D., but
rather Weaver and Riley’s alleged failure to seek a specific type of medical screening for
J.D.D. based on their alleged knowledge of a risk that he was possibly infected with HIV.
Unlike H.A.L., Ray, Omar and other similar cases, the facts of the instant case are
significantly different from Taylor such that the Court cannot conclude that Taylor put
Weaver and Riley on adequate notice that their conduct was a violation of J.D.D.’s
constitutional rights.
Cases interpreting the Eighth Amendment prohibition against cruel and unusual
punishment, which are analyzed under the same deliberate indifference standard, are
also too factually different to put Weaver and Riley on notice. Cottone v. Jenne, 326
F.3d 1352, 1357 n.4 (“[T]he standard for providing basic human needs . . . is the same
under both the Eighth and Fourteenth Amendments.”). Estelle v. Gamble established
the broad constitutional principle that deliberate indifference to serious medical needs of

36

App.050

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 37 of 54 PageID 4949

prisoners constitutes the “unnecessary and wanton infliction of pain.” 429 U.S. 97, 104
(1976). In Estelle, a prisoner brought suit under § 1983 against prison personnel for their
failure to diagnose and adequately treat his back injury, noting a number of options that
were not pursued by medical personnel despite his complaints. Id. at 107. However,
the Court held that this conduct did not amount to deliberate indifference.

Id.

Specifically, the Court stated that “the question whether an X-ray or additional diagnostic
techniques or forms of treatment is indicated is a classic example of a matter for medical
judgment.

A medical decision not to order an X-ray, or like measures, does not

represent cruel and unusual punishment. At most it is medical malpractice . . . .” Id.
The cases that do find an official’s conduct to amount to deliberate indifference
involve officials ignoring a diagnosed or extremely obvious need for medical attention.
Farrow, 320 F.3d at 1243. Under this line of cases, the Court would have to find that
Weaver and Riley had knowledge of J.D.D.’s need for treatment, either because his HIV
was already diagnosed or its symptoms were obvious. However, as discussed above,
these are not the facts at hand. There is no evidence that J.D.D. was suffering from any
symptoms that would be indicative of HIV, nor has Plaintiff offered proof that Weaver and
Riley were aware of an immediate need for further medical treatment that they ignored.
He had thrush as a child, but medical experts testified that this is a normal occurrence in a
child under five and would not be cause to conduct an HIV test. (Dkt 98-6 at 25:15–24;
Dkt. 98-10 at 89:16–23) In fact, after reviewing J.D.D.’s medical records, Plaintiff’s
medical expert Dr. Tureen testified that all of J.D.D.’s childhood health issues, even a
blood test with an abnormal platelet count, which in hindsight is what leads him to believe
J.D.D. had HIV as a child, would not have been cause to order an HIV test. (Dkt. 98-10

37

App.051

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 38 of 54 PageID 4950

at 88:21–24; 90:21–25; 91:1–20) Clifford, J.D.D.’s foster father, testified that J.D.D. may
have suffered from slightly more ailments than other children, but he attributed that to A.
Davis’s use of drugs during her pregnancy. (Dkt. 104-2 at 28:2–13) Thus, there was
nothing to put anyone on notice of J.D.D.’s illness, distinguishing this case from those
finding deliberate indifference. See Brown v. Johnson, 387 F.3d 1344, 1351 (11th Cir.
2004)12 (finding deliberate indifference when the defendants knew that Plaintiff had been
diagnosed with HIV and hepatitis but withdrew the prescribed treatment for his illness
anyway). Farrow, 320 F.3d at 1246 (11th Cir. 2003) (finding deliberate indifference
when plaintiff repeatedly told defendant about his pain, weight loss, and other symptoms,
and thus defendant knew of a serious risk of harm); H.C. by Hewett v. Jarrard, 786 F.2d
1080, 1083 (11th Cir. 1986) (finding deliberate indifference when, inter alia, defendants
ignored plaintiff’s demands for medical attention for a known injury). Thus, the case law
interpreting deliberate indifference to a prisoner’s serious medical need does not set forth
the clearly established law needed to overcome Defendants’ qualified immunity defense.
Similarly, the Court cannot find that the alleged conduct was so egregious that
“case law is not needed to establish that the conduct cannot be lawful.” Melton, 841 F.3d
at 1221. Plaintiff cites to U.S. v. Lanier, 520 U.S. 259, 271 (1997), in which the Supreme
Court stated that “[t]here has never been . . . a section 1983 case accusing welfare
officials of selling foster children into slavery; it does not follow that if such a case arose,
the officials would be immune from damages [or criminal] liability.” (Dkt. 87 at 16)
However, the conduct alleged in this case—failure to refer a child for HIV testing based on
12 Brown is inapposite because the defendants in that case subjectively knew that the plaintiff
was HIV positive but withdrew his treatment and medication despite this knowledge. 387 F.3d
at 1352. Moreover, Brown was decided in 2004, after the relevant time period and would be
insufficient to clearly establish the law in this case.

38

App.052

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 39 of 54 PageID 4951

knowledge of certain risk factors of the mother— stands in stark juxtaposition to the level
of egregiousness posited by this hypothetical or exhibited in other cases that have fallen
within its narrow exception. See, e.g., Hope, 536 U.S. at 745 (applying exception when
defendants handcuffed an already subdued prisoner to a hitching post for seven hours in
the Alabama sun, taunting him and depriving him of water and bathroom breaks. “The
obvious cruelty inherent in this practice should have provided [defendants] with some
notice that their alleged conduct violated [plaintiff’s] constitutional protection against cruel
and unusual punishment.”). Plainly, this case does not fall within the exception.
ii.

No Clearly Established Statutory Law

Plaintiff also argues that the Medicaid Act clearly established federal statutory law
for purposes of overcoming qualified immunity. Specifically, Plaintiff argues that
J.D.D. had a clearly established federal statutory right to early screening,
testing, diagnosis, treatment, information and care, 42 U.S.C. § 1396a(a)(8)
and (10), as defined by § 1396a(a)(43), and 1396d(a),(r), because “medical
assistance shall be furnished with reasonable promptness to all eligible
individuals,” . . . and that means early and regular check-ups and testing,
which must include laboratory testing, § 1396d(a),(r), diagnosis and
treatment to correct or ameliorate defects and physical conditions. . . . In
violation of this clearly established right, Defendants Weaver and Riley
denied J.D.D. required and rightful testing, and medical assistance with
reasonable promptness, despite multiple risk factors of which they had
actual knowledge.
(Dkt. 87 at 16, n.15 (emphasis in original)) For the reasons that follow, the Court does
not find that the Medicaid Act provisions cited are sufficiently clear to put Weaver and
Riley on notice that their failure to recommend HIV screening for J.D.D. violated his
statutory right to medical assistance with reasonable promptness and EPSDT.
As established by the Supreme Court in Davis v. Sherer, “[o]fficials sued for
constitutional violations do not lose their qualified immunity merely because their conduct

39

App.053

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 40 of 54 PageID 4952

violates some statutory or administrative provision.” 468 U.S. 183, 194 (1984). As the
Court noted, state officials “are subject to a plethora of rules, often so voluminous,
ambiguous, and contradictory, and in such flux that officials can only comply with or
enforce them selectively.” Id. at 196 (citation and quotation marks omitted). However,
some federal statutory provisions can be “sufficiently clear on their own to provide
defendants with fair notice of their obligations under the law.” Gonzalez v. Lee Cty.
Hous. Auth., 161 F.3d 1290, 1301 (11th Cir. 1998). Moreover, if the statute’s language
provides insufficient notice, its implementing regulation can do so in very narrow
circumstances. Id. at 1302–03 (“[W]e do not expect state officials to be aware of every
regulation that indirectly might give rise to a possible constitutional claim.”) The statute
or regulation must “unmistakably” instruct that the described public official’s behavior is
illegal. Id. at 1304–05 (finding that a federal regulation implementing the Fair Housing
Amendments Act of 1988 which “unmistakably instructs that it is illegal to fire an
employee for refusing to discriminate against prospective tenants on the basis of race”
was sufficient to put an official on notice that she was subject to liability for its violation).
None of the federal statutes cited by Plaintiff mandate HIV testing specifically, nor
do they unmistakably instruct that the failure to refer a child for such a test is illegal. The
Medicaid Act provisions cited set forth requirements that a state must incorporate into its
plan for medical assistance if the state elects to receive federal funding. See 42 U.S.C.
§§ 1396a(a)(8) (mandating that a state plan provide medical assistance with reasonable
promptness to all eligible individuals), (10) (mandating that a state plan make medical
assistance available to specific categories of individuals), (43) (mandating that a state
plan inform persons under the age of 21 of the availability of EPSDT and arrange for such

40

App.054

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 41 of 54 PageID 4953

services and treatment when requested); § 1396d(a) (defining medical assistance), (r)
(defining EPSDT).

As discussed above, the record reflects that J.D.D. did receive

normal medical examinations as well as treatment for discovered ailments such as
thrush, asthma, colds, etc. while in the custody of DCF.

Such evidence includes the

testimony of Clifford, J.D.D.’s foster father, who specifically recalls taking J.D.D. to Dr.
Gonzalez for various doctor appointments during the 2000 to 2003 time period at which
J.D.D. received treatment for known ailments and immunizations. (Dkt. 104-2 at 9:15–
25, 10:1–22, 21:6–20) Nowhere in the Medicaid Act does it clearly establish that a DCF
worker who fails to specifically refer a foster child for HIV screening despite knowledge
that the child’s birth mother (and, by extension the child) has certain risk factors for HIV
has violated the child’s statutory rights.
The case law cited by Plaintiff to further clarify the statutory rights created by the
Medicaid Act is also insufficient to clearly establish that Weaver and Riley’s failure to have
J.D.D. tested for HIV was a violation of his rights. The only case cited by Plaintiff that
falls within the relevant time period is Doe 1-13 By & Through Doe Sr. 1-13 v. Chiles, 136
F.3d 709, 719 (11th Cir. 1998).

Plaintiff points to Doe as decisional authority that

established the law in question “‘with obvious clarity’ to the point that every objectively
reasonable government official facing the circumstances would know that the official's
conduct did violate federal law when the official acted.” (Dkt. 87 at n.16) (quoting Melton,
841 F.3d at 1221). However, a reading of Doe does not set forth with such obvious
clarity that the Medicaid statutes required Weaver and Riley to have J.D.D. screened for
HIV or that failure to do so would clearly be a violation of his rights.

41

App.055

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 42 of 54 PageID 4954

Doe involved a § 1983 class-action against state officials by Medicaid-eligible,
developmentally disabled individuals who were placed on waiting lists for entry into
intermediate care facilities.

136 F.3d at 711.

The Doe plaintiffs claimed that the

defendant state agency officials were violating their right to receive medical assistance
with reasonable promptness under 42 U.S.C. § 1396(a)(8) of the Medicaid Act. Id.
Specifically, the plaintiffs in Doe alleged that the agencies had them waiting for over five
years for Medicaid services, during which time they were languishing without desperately
needed therapies and treatment.

They sought injunctive relief for the officials’

continuous violation of the Medicaid Act.

Id.

The Eleventh Circuit affirmed the

injunction issued by the district court and held that the plaintiffs had “a federal right to
reasonably prompt provision of assistance under section 1396a(a)(8) of the Medicaid Act,
and that this right is enforceable under section 1983.” Id. at 719. Unlike the plaintiffs in
Doe, J.D.D.’s medical issue was not known. Additionally, treatment was not denied or
delayed at any point once he and his caretakers sought it.

Within hours of being

diagnosed with HIV/AIDS, J.D.D. began treatment with Dr. Rodriguez. (Dkt. 87-4 at
33:24–25; 34:1)

Dr. Rodriguez testified that J.D.D. was placed on prophylaxis

immediately, and within a few days he was started on HAART.

(Id. at 36:13–17)

Although Doe puts participating states on notice that they must furnish medical
assistance with reasonable promptness and that failing to do so could result in liability
under § 1983, it says nothing about providing such medical assistance where an ailment
is unknown, or for providing HIV testing for children who meet certain “risk factors.”
Thus, it does not clearly establish a statutory requirement, the violation of which would
vitiate an official’s qualified immunity.

42

App.056

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 43 of 54 PageID 4955

Further, to the extent that Plaintiff relies on various provisions of the Florida
statutes and administrative rules, they too fail to set forth the requisite clearly established
law needed to overcome qualified immunity. Plaintiff cites to Florida Statute § 39.407(1),
which states:
When any child is removed from the home and maintained in an
out-of-home placement, the department is authorized to have a medical
screening performed on the child without authorization from the court and
without consent from a parent or legal custodian. Such medical screening
shall be performed by a licensed health care professional and shall be to
examine the child for injury, illness, and communicable diseases and to
determine the need for immunization. The department shall by rule
establish the invasiveness of the medical procedures authorized to be
performed under this subsection. In no case does this subsection authorize
the department to consent to medical treatment for such children.
Fla. Stat. §39.407(1) (emphasis added). Notably, this statute gives DCF the authority to
have a medical screening performed on a child, but does not mandate that such
screening be done. Plaintiff also cites to Florida Statute § 411.223(1), which states:
[DCF], in consultation with the Department of Education, shall establish a
minimum set of procedures for each preschool child who receives
preventive health care with state funds. Preventive health care services
shall meet the minimum standards established by federal law for the
[EPSDT] Program and shall provide guidance on screening instruments
which are appropriate for identifying health risks and handicapping
conditions in preschool children.
Fla. Stat. § 411.223(1). This statute also does not make clear that Weaver and Riley
were required to have J.D.D. screened for HIV, as it requires DCF to establish minimum
procedures and provide certain guidance, but it does not mandate any specific action by a
DCF worker. Plaintiff also cites to Florida Administrative Code Rule 65C-12.002, which
mandates a health screening for any child entering the emergency shelter system, “if the
child protective investigator, service counselor or the receiving shelter parent determines
that one is needed immediately.” Fla. Admin. Code R. 65C-12.002(2). This rule also

43

App.057

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 44 of 54 PageID 4956

requires an initial health care assessment to be done using the EPSDT procedures
“within 72 hours after placement in shelter care.” Id. at 65C-12.002(3). However, the
rule specifies:
If the child received a health screening upon entering shelter care, as
explained in subsection (2) above, or if the child is a newborn who has
not left the hospital prior to placement in shelter care and has
received a health assessment at the hospital, all or part of the health
care assessment may have been performed. If so, any components of
the health care assessment that were performed during a health screening,
or during a health assessment of a newborn, do not have to be repeated.
Only a health care professional may determine, by review of the
medical record, which portions of the health care assessment were
performed during a health screening or health assessment of a
newborn.
Id. (emphasis added) The Court notes that it does not appear that Weaver and Riley
violated this rule, which would have permitted them to rely on a health care assessment
performed at the hospital and the determination of a health care professional for what
portions of the assessment were needed. Further, the rule says nothing about whether
an HIV test was required as part of the screening.
The most directly relevant legislation set forth by Plaintiff is Florida Administrative
Code Rule 65C-13.017, which discusses services for HIV infected children and states in
pertinent part:
(7) The following children should be considered at risk and should be
tested following consent and counseling:
(a) Children born with a positive drug screen for those drugs
commonly self-administered by injection.
Hospital staff will
normally discover these children and request appropriate permission
prior to the children’s leaving the hospital following birth;
(b) Children of mothers who admit to present or past use of injection
drugs;
(c) Children with symptoms of drug withdrawal and where (d) also
applies;

44

App.058

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 45 of 54 PageID 4957

(d) Children whose mothers have a history of arrests for drug
offenses or prostitution, or a professional has observed that the
mother is using injection drugs;
(e) Any abandoned newborn . . . .
Fla. Admin. Code R. 65C-13.017(7)(a)–(e) (repealed in 2008) (emphasis added). The
record is clear that J.D.D. had symptoms of drug withdrawal and his mother had a history
of prostitution per the old abuse reports. (Dkt. 110-5 at 4; Dkt. 110-6 at 3) Also, Plaintiff
argues that J.D.D. was an abandoned newborn under subsection (e). (Dkt. 110 at 9 n.6)
Thus, Plaintiff argues that Weaver and Riley were “required to have J.D.D. tested for HIV”
pursuant to this statute.

(Id. (emphasis in original))

However, like the previously

discussed rules, this rule strongly recommends but does not mandate testing in the
above-mentioned circumstances. Thus, the cited state statutes and administrative rules
do not interpret the Medicaid Act; they do not have the requisite force of law necessary to
clearly establish federal constitutional law for purposes of qualified immunity; and, for the
reasons discussed above, they also do not unmistakably instruct that Weaver and Riley’s
conduct was illegal. See Davis, 468 U.S. at 194–96; Gonzalez, 161 F.3d at 1304–05.
Because Plaintiff has not proven that Weaver and Riley violated clearly established law,
the Court finds that they are entitled to qualified immunity.
Accordingly, Defendants’ Motion for Summary Judgment is due to be GRANTED
as to Counts I, II, and III.
B.

Count IV against Carroll

Count IV of Plaintiff’s Second Amended Complaint asserts a claim for declaratory
and prospective injunctive relief against Carroll in his official capacity as Secretary of
DCF.

(Dkt. 17 at 15–17) Generally, the Eleventh Amendment to the United States

Constitution bars suits against a state initiated by that state’s own citizens.

45

U.S. Const.

App.059

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 46 of 54 PageID 4958

amend. XI.

However, under the doctrine of Ex parte Young, 209 U.S. 123 (1908),

“there is a long and well-recognized exception to this rule for suits against state officers
seeking prospective equitable relief to end continuing violations of federal law.” Fla.
Ass’n of Rehab. Facilities, Inc. v. State of Fla. Dep’t of Health & Rehab. Servs., 225 F.3d
1208, 1219 (11th Cir. 2000).

Ex parte Young can be applied in cases where there is an

ongoing violation of federal law, “as opposed to cases in which federal law has been
violated at one time or over a period of time in the past.” Id. Thus, the relief sought
must directly end the violation of federal law, rather than merely seeking to encourage
compliance through deterrence or to compensate the victim.

Id.

To determine

whether a plaintiff has alleged a proper Ex parte Young claim, the federal court “need
only conduct a ‘straightforward inquiry into whether [the] complaint alleges an ongoing
violation of federal law and seeks relief properly characterized as prospective.’”
Verizon Maryland, Inc. v. Pub. Serv. Comm'n of Maryland, 535 U.S. 635, 645 (2002).
Here, Plaintiff asserts that in violation of 42 U.S.C. § 1396a(a)(8), (10), and (43),
Carroll has failed to provide J.D.D. or his adult caretakers with information regarding the
availability of EPSDT, the benefits of preventative care, where services are available,
and how to obtain them.

(Dkt. 115 at 8)

Plaintiff seeks prospective injunctive relief to

remedy Carroll’s continuing wrong in violating the right of J.D.D., and others like him, to
EPSDT, prompt medical assistance, and outreach services under the Medicaid Act. (Id.
at 3) Specifically, Plaintiff seeks an Order requiring Carroll to “promulgate, enact, and
institute rules, regulations, policies and/or procedures to prevent such future violations.”
(Dkt. 17 at 17)

Defendants contend that, inter alia, Plaintiff does not have standing to

46

App.060

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 47 of 54 PageID 4959

pursue his claims against Carroll and that DCF does not have outreach responsibilities
under the Medicaid Act.
As a threshold matter, Plaintiff has the burden of proving that he has Article III
standing.

Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016). To do so, he must

allege sufficient facts to establish that he “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant, and (3) that is likely to be
redressed by a favorable judicial decision.”

Id. (citation omitted).

As to the first

element, the injury “may exist solely by virtue of statutes creating legal rights, the
invasion of which creates standing.” Lujan v. Defs. of Wildlife, 504 U.S. 555, 578 (1992)
(citations and quotation marks omitted). As to the second element, “there must be a
causal connection between the injury and the conduct complained of—the injury has to
be ‘fairly . . . trace[able] to the challenged action of the defendant, and not . . . th[e] result
[of] the independent action of some third party not before the court.’”

Id. at 560.

(quoting Simon v. Eastern Ky. Welfare Rights Organization, 426 U.S. 26, 41–42 (1976)).
“Since they are not mere pleading requirements but rather an indispensable part of the
plaintiff's case, each element must be supported in the same way as any other matter on
which the plaintiff bears the burden of proof, i.e., with the manner and degree of
evidence required at the successive stages of the litigation.”

Id. at 561.

In response to

a summary judgment motion, a plaintiff cannot merely rest on the allegations in his
complaint, but must set forth by evidence specific facts, which for purposes of the
summary judgment motion will be taken to be true.

Id.

Defendants argue that Plaintiff has not met his burden of proving an Article III
injury and that, even assuming Plaintiff was injured, Carroll’s agency is not the proper

47

App.061

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 48 of 54 PageID 4960

entity responsible for said injury.

(Dkt. 120 at 5–12)

The Court finds that, even

assuming Plaintiff has established the requisite injury, he has failed to prove that his
injury was caused by Defendant Carroll or his agency because neither the Medicaid Act
nor the Florida laws implementing it require Carroll’s agency to provide the information
J.D.D. seeks. Thus, Plaintiff lacks standing.
As the Eleventh Circuit has summarized,
[the Medicaid] program is a cooperative federal-state effort to furnish with
public assistance people who are unable to meet the cost of necessary
medical services. Unlike major federal entitlement programs such as
Social Security, Supplemental Security Income, and Medicare, Medicaid is
not a federally-administered program with a uniform set of
statutorily-defined benefits; rather, it is a state-administered program
where the costs of services are allocated between the federal government
and the states. No state is obligated to participate in the Medicaid program.
If a state opts to participate in the Medicaid program, however, it must do
so in a manner that complies with federal statutory and regulatory
requirements. See 42 U.S.C. § 1396n. Within the general framework of
federal law, states that choose to participate in the Medicaid program (thus
qualifying for federal financial aid covering the medical assistance costs of
eligible individuals) are granted broad latitude in defining the scope of
covered services as well as many other key characteristics of their
programs. Florida, like all other states, participates in the Medicaid
program.
Fla. Ass'n of Rehab. Facilities, Inc. v. State of Fla. Dep't of Health & Rehab. Servs., 225
F.3d 1208, 1211 (11th Cir. 2000).
Title 42 U.S.C. § 1396a(43)(A) requires that a State plan for medical assistance
must “provide for . . . informing all persons in the State who are under the age of 21 and
who have been determined to be eligible for medical assistance . . . of the availability of
early and periodic screening, diagnostic, and treatment services as described in section
1396d(r) of this title and the need for age-appropriate immunizations . . . .” 42 U.S.C.
§1396a(43)(A).

Plaintiff argues that J.D.D. is injured because he is not currently

48

App.062

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 49 of 54 PageID 4961

receiving this information.

(Dkt. 115 at 8) Plaintiff also argues that Carroll’s failure to

give notice of the availability of these services causes a de facto denial of EPSDT and
medical assistance as required under 42 U.S.C. § 1396a(8) and (10).

(Dkt. 121 at 3)

Plaintiff’s argument fails because he cannot establish that Carroll’s agency is responsible
for promulgating this information.

Plaintiff also cannot establish that he is currently

being denied EPSDT or medical assistance.
Defendants argue that DCF is not statutorily responsible for providing outreach
services to J.D.D., and others like him, therefore Plaintiff cannot prove that it is Carroll’s
agency that is causing his injury.

(Dkt. 104 at n.2, Dkt. 120 at 8–10) Defendants note

that while the Medicaid Act requires the state of Florida to provide this information, it
does not specify DCF as the agency that must do so.

(Dkt. 116 at 5–6; Dkt. 120 at 8)

Defendants argue that Florida’s Agency for Health Care Administration (“AHCA”),
Florida’s Department of Health (“DOH”), or another agency has the obligation to provide
such outreach services and information on EPSDT.

(Dkt. 120 at 9–10)

In support,

Defendants proffer an EPSDT Sunshine Health Annual Training manual available on the
DOH’s public website, as well as another EPSDT informational document available on
AHCA’s website.

(Dkts. 120-1, 120-2)

Plaintiff contends that federal law “not only requires Florida provide such
Outreach information, but requires Carroll’s DCF agency to provide it.”
Plaintiff cites to four cases to support his argument:

(Dkt. 115 at 12)

Frew ex rel. Frew v. Hawkins, 540

U.S. 431, 433–34 (2004), Doe, 136 F.3d at 719, Smith v. Benson, 703 F. Supp. 2d 1262,
1273 (S.D. Fla. 2010), and Fla. Pediatric Soc’y/Fla. Chapter of the Am. Acad. of
Pediatrics v. Benson, No. 05-23037-CIV, 2009 WL 10668708 (S.D. Fla. Mar. 20, 2009).

49

App.063

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 50 of 54 PageID 4962

(Id. at 12–14)

However, Plaintiff’s cited cases do not establish that DCF is the agency

required to provide EPSDT outreach services.
In Frew, the mothers of children eligible for EPSDT services in Texas sued under
§ 1983 seeking injunctive relief against officials at the Texas Department of Health and
the Texas Health and Human Services Commission, as well as the Texas State
Medicaid Director alleging that the Texas EPSDT program did not satisfy the
requirements of federal law, including the notice requirements under §1396a(43).
Frew, 540 U.S. at 434.

Notably, Frew did not involve a suit against a DCF official.

Id.

The issue in Frew was whether a consent decree voluntarily entered into by the parties
was enforceable in light of the fact that it imposed more obligations on the state officials
than were required under the Medicaid statute.

Id. at 435–36.

The Supreme Court

held that even though the consent decree included obligations beyond what was
required under the Medicaid Act, its enforcement was not violative of the Eleventh
Amendment.

Id. at 438–39.

In dicta, the Court cautioned that “principles of federalism

require that state officials with front-line responsibility for administering [a federal]
program be given latitude and substantial discretion.”

Id. at 442. The opinion said

nothing about DCF being responsible for administering outreach provisions under the
Medicaid Act.
Doe is also unhelpful, as it too did not involve a suit against DCF officials.
136 F.3d at 709.

Doe,

Additionally, Doe dealt not with the outreach requirement but with the

reasonable promptness requirement in § 1396a(8). 136 F.3d at 711. Specifically, in
Doe, the Eleventh Circuit upheld an injunction that required the defendants to establish
within Florida’s Medicaid plan a reasonable waiting list time period that did not exceed 90

50

App.064

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 51 of 54 PageID 4963

days for eligible individuals.

Id. at 720–21, 723.

Like Frew, Doe is inapposite and

does not point to DCF as the agency responsible for providing outreach services under
the Medicaid Act.
In Smith, the district court granted declaratory and prospective injunctive relief
against the defendant, an AHCA official, for her failure to provide prescribed
incontinence supplies to a qualified Medicaid recipient. 703 F. Supp.2d at 1264.

Like

Frew and Doe, Smith does not mention DCF, nor does it deem DCF the agency
responsible for providing outreach services. On the contrary, the court expressly noted
that “[t]he Agency for Health Care Administration (AHCA) is the Florida agency charged
with the duty of administering the federal Medicaid program.”

Id. at n.1.

Plaintiff’s most helpful authority is Benson, a case in which a DCF official, along
with others, was sued for, inter alia, failure to provide outreach and information in
violation of § 1396a(a)(43).

2009 WL 10668708 (S.D. Fla. 2009) at *2.

Unlike the

other cases, Benson does involve a suit against a DCF official and does discuss DCF’s
outreach responsibilities under the Medicaid Act.

Id. at *8. Specifically, the Benson

court stated that “DCF, as well as AHCA and DOH, have outreach responsibilities; they
are required to ‘ensure that each Medicaid recipient receives clear and easily
understandable information’ about Medipass or managed care options.”
Fla. Stat. § 409.9122(2)(c)).

Id. (quoting

However, the provision of Florida law that gave rise to the

Benson court’s finding that DCF had outreach responsibilities under the Medicaid Act
was repealed on October 1, 2014.

See ch. 2011-135, § 21, Laws of Fla. (providing that

subsection (2) expires October 1, 2014).

The former § 409.9122(2)(c) stated the

following:

51

App.065

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 52 of 54 PageID 4964

(c) Medicaid recipients shall have a choice of managed care plans or
MediPass. The Agency for Health Care Administration, the Department of
Health, the Department of Children and Family Services, and the
Department of Elderly Affairs shall cooperate to ensure that each Medicaid
recipient receives clear and easily understandable information that meets
the following requirements:
1. Explains the concept of managed care, including MediPass.
2. Provides information on the comparative performance of
managed care plans and MediPass in the areas of quality,
credentialing, preventive health programs, network size and
availability, and patient satisfaction.
3. Explains where additional information on each managed care
plan and MediPass in the recipient’s area can be obtained.
4. Explains that recipients have the right to choose their managed
care coverage at the time they first enroll in Medicaid and again at
regular intervals set by the agency. However, if a recipient does not
choose a managed care plan or MediPass, the agency will assign
the recipient to a managed care plan or MediPass according to the
criteria specified in this section.
5. Explains the recipient’s right to complain, file a grievance, or
change managed care plans or MediPass providers if the recipient
is not satisfied with the managed care plan or MediPass.
Fla. Stat. § 409.9122(2)(c) (subsection repealed 2014).
Florida Statutes no longer mentions DCF.13 Id.

Currently, this section of the

Plaintiff points to no other statutory

subsection wherein DCF is currently specifically delegated outreach responsibilities
arising from § 1396a(43)(A).

Thus, the reasoning in Benson does not apply here.

Accordingly, even assuming an informational injury to J.D.D. due to his failure to
receive outreach and notices regarding the availability of EPSDT services, Plaintiff has
not met his burden of proving that his injury was caused by the action or inaction of DCF.
Likewise, because Plaintiff cannot prove that DCF is responsible for his alleged
informational injury, he cannot prove that DCF is responsible for his de facto denial of
EPSDT and medical assistance.

13 Ironically, the current iteration of Florida Statute §409.9122 concerns Medicaid managed
care enrollment for HIV/AIDS patients. Fla. Stat. § 409.9122 (2018).

52

App.066

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 53 of 54 PageID 4965

Moreover, J.D.D. is not currently being denied EPSDT or medical assistance.
As previously noted, J.D.D. began receiving treatment and medical assistance from Dr.
Rodriguez within hours of his diagnosis.

(Dkt. 87-4 at 29:17–23, 30:1–5; 34:1) J.D.D.

is also currently being treated by Dr. Rodriguez on a regular and continuing basis, and
his health has improved significantly since beginning treatment, to the point where his
viral load is currently undetectable and his CD4 levels are over 500, which Dr. Rodriguez
testified is a “good prognosis.”

(Id. at 37:3–17)

Because J.D.D. does not have

standing to proceed on this claim, the Court grants summary judgment in favor of
Defendant on this count without reaching Defendants’ remaining arguments.
IV.

CONCLUSION
Upon consideration of the foregoing, it is hereby ORDERED as follows:
1.

Defendants’ Motion for Summary Judgment, (Dkt. 104), is
GRANTED.

2.

Plaintiff’s Motion for Partial Summary Judgment as to Liability of
Defendants Weaver & Riley, (Dkt. 87), is DENIED.

3.

Plaintiff’s Amended Motion for Partial Summary Judgment for
Declaratory and Injunctive Relief as to Defendant Mike Carroll (as to
Count IV Only), (Dkt. 115), is DENIED.

4.

Plaintiff’s Daubert Motion to Disqualify Expert Witness John S.
Harper, (Dkt. 88), is DENIED AS MOOT, as the Court did not take
his expert report or testimony into consideration in resolving this
matter.

53

App.067

Case 8:16-cv-00998-MSS-SPF Document 154 Filed 09/27/18 Page 54 of 54 PageID 4966

5.

The Clerk is directed to enter FINAL JUDGMENT in favor of
Defendants.

After entry of final judgment, the Clerk shall terminate

any pending motions and CLOSE this case.
DONE and ORDERED in Tampa, Florida, this 27th day of September, 2018.

Copies furnished to:
Counsel of Record
Any Unrepresented Person

54

App.068

!00%.$)8 #
% . 0%. -..-'1). ' (("') . "2%/0.

%S





-% 2-
SR 69D5L: S:  5 OERSV 7DEL8
(L5FRZF<=  UU9LL5R[
^9VY]Y
$))'""
FR DEY S;@7E5L 75U57F\a 5Y -97V9Z5K` S: [D9 LSVE85 9U5VZO9R[ S:DEM8V9R 5R8 5OEME9Y
3"% ) 32)
IR D9V S?H7E5L 5R8 ER8E^E8]5L 75U57E[E9Y 5Y 5OELa -9V^E79YS]RY9LSV A [D9 LSVF85 9U5VZO9R[
S:DEL8X9R  5OEME9Y
(0" ,4
FR D9V S?H7E5L 5R8 ER8E^E8]5L 75U57E[E9Y 5Y 5QELa -9V_E79YS]RY9LSV -]U9V^EYSW <TV LSVE85
9U5V[O9R[ S:DEM8V9R  5OELF9Y
9>R85R[Y  UU9NL99Y

UU95M BSO [D9 0RE[98 -[5[9Y EY[WE7ZSPG
<TV [D9 #E88L9 EYZVE7[ S: LSVE85
'+ !"" ()4') 5R8 *%/EV7]EZ ]8C9Y 5R8 )'4" EY[KbE7[ ]8C9
()1+#
.D9 (9[E[ESR <TX (5R9M )9D95VJRC <HL98 6a [D9 UU9ML5R[ EY &
SRSV56L9 YDL9a )Sa5L -9RESW EY[VE7[ ]8C9 S: [D9 #E88M9 EY[KcE7[ S: 9SVCF5 YF[ZFRC 6a
89YECR5[ESR

')

App.069

____________
APPENDIX D
____________
Transcript Excerpts
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF FLORIDA
CASE NO. 8:16-CV-998-MSS-SPF
SHANE DAVIS, on Behalf of
*
J.D.D., a Minor Child,
*
Plaintiff,
*
vs.
*
MIKE CARROLL,
*
WILEEN R. WEAVER,
*
PAULINE RILEY,
*
Defendants.
*
_____________________________________ *
Excerpts of Wileen R. Weaver
Deposition Transcript
November 3, 2017
[p. 26]

*

*

*

Q. [BY MR. STANZIALE] Were you aware of the fact between
April 1 of 2000 and January 1 of 2001, that such medical screening
shall be performed by a licensed health care professional and shall
be to examine the child for injury, illness, and communicable diseases?
A. Yes.
Q. You were aware of that back at that time?
A. Yes.
Q. You just -A. But I don't do that.
*

*

*

App.070

